<html>
<title> - 2014: SEEKING PPACA ANSWERS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]







                      2014: SEEKING PPACA ANSWERS

=======================================================================

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 16, 2014

                               __________

                           Serial No. 113-113



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





      Printed for the use of the Committee on Energy and Commerce
                      energycommerce.house.gov
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

88-545 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                     
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman
RALPH M. HALL, Texas                 HENRY A. WAXMAN, California
JOE BARTON, Texas                      Ranking Member
  Chairman Emeritus                  JOHN D. DINGELL, Michigan
ED WHITFIELD, Kentucky                 Chairman Emeritus
JOHN SHIMKUS, Illinois               FRANK PALLONE, Jr., New Jersey
JOSEPH R. PITTS, Pennsylvania        BOBBY L. RUSH, Illinois
GREG WALDEN, Oregon                  ANNA G. ESHOO, California
LEE TERRY, Nebraska                  ELIOT L. ENGEL, New York
MIKE ROGERS, Michigan                GENE GREEN, Texas
TIM MURPHY, Pennsylvania             DIANA DeGETTE, Colorado
MICHAEL C. BURGESS, Texas            LOIS CAPPS, California
MARSHA BLACKBURN, Tennessee          MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                      JANICE D. SCHAKOWSKY, Illinois
PHIL GINGREY, Georgia                JIM MATHESON, Utah
STEVE SCALISE, Louisiana             G.K. BUTTERFIELD, North Carolina
ROBERT E. LATTA, Ohio                JOHN BARROW, Georgia
CATHY McMORRIS RODGERS, Washington   DORIS O. MATSUI, California
GREGG HARPER, Mississippi            DONNA M. CHRISTENSEN, Virgin 
LEONARD LANCE, New Jersey                Islands
BILL CASSIDY, Louisiana              KATHY CASTOR, Florida
BRETT GUTHRIE, Kentucky              JOHN P. SARBANES, Maryland
PETE OLSON, Texas                    JERRY McNERNEY, California
DAVID B. McKINLEY, West Virginia     BRUCE L. BRALEY, Iowa
CORY GARDNER, Colorado               PETER WELCH, Vermont
MIKE POMPEO, Kansas                  BEN RAY LUJAN, New Mexico
ADAM KINZINGER, Illinois             PAUL TONKO, New York
H. MORGAN GRIFFITH, Virginia         JOHN A. YARMUTH, Kentucky
GUS M. BILIRAKIS, Florida
BILL JOHNSON, Missouri
BILLY LONG, Missouri
RENEE L. ELLMERS, North Carolina

              Subcommittee on Oversight and Investigations

                        TIM MURPHY, Pennsylvania
                                 Chairman
MICHAEL C. BURGESS, Texas            DIANA DeGETTE, Colorado
  Vice Chairman                        Ranking Member
MARSHA BLACKBURN, Tennessee          BRUCE L. BRALEY, Iowa
PHIL GINGREY, Georgia                BEN RAY LUJAN, New Mexico
STEVE SCALISE, Louisiana             JANICE D. SCHAKOWSKY, Illinois
GREGG HARPER, Mississippi            G.K. BUTTERFIELD, North Carolina
PETE OLSON, Texas                    KATHY CASTOR, Florida
CORY GARDNER, Colorado               PETER WELCH, Vermont
H. MORGAN GRIFFITH, Virginia         PAUL TONKO, New York
BILL JOHNSON, Ohio                   JOHN A. YARMUTH, Kentucky
BILLY LONG, Missouri                 GENE GREEN, Texas
RENEE L. ELLMERS, North Carolina     HENRY A. WAXMAN, California (ex 
JOE BARTON, Texas                        officio)
FRED UPTON, Michigan (ex officio)














  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Tim Murphy, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................     1
    Prepared statement...........................................     3
Hon. Diana DeGette, a Representative in Congress from the state 
  of Colorado, opening statement.................................     4
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................     6
    Prepared statement...........................................     7
Hon. Kathy Castor, a Representative in Congress from the State of 
  Florida, opening statement.....................................     8

                               Witnesses

Gary Cohen, Deputy Administrator and Director, Center for 
  Consumer Information and Insurance Oversight, Centers for 
  Medicare and Medicaid Services.................................    10
    Prepared statement...........................................    13
    Answers to submitted questions...............................

                           Submitted Material

Minority memorandum dated January 16, 2014.......................    58
Minority memorandum dated January 9, 2014........................    62

 
                      2014: SEEKING PPACA ANSWERS

                              ----------                              


                       THURSDAY, JANUARY 16, 2014

                  House of Representatives,
      Subcommittee on Oversight and Investigations,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 9:33 a.m., in 
room 2123 of the Rayburn House Office Building, Hon. Tim Murphy 
(chairman of the subcommittee) presiding.
    Present: Representatives Murphy, Burgess, Blackburn, 
Gingrey, Harper, Olson, Gardner, Griffith, Johnson, Long, 
Ellmers, Upton (ex officio), DeGette, Braley, Schakowsky, 
Butterfield, Castor, Welch, Tonko, Yarmuth, and Green.
    Staff present: Carl Anderson, Counsel, Oversight; Gary 
Andres, Staff Director; Sean Bonyun, Communications Director; 
Karen Christian, Chief Counsel, Oversight; Noelle Clemente, 
Press Secretary; Brad Grantz, Policy Coordinator, Oversight and 
Investigations; Brittany Havens, Legislative Clerk; Sean Hayes, 
Counsel, Oversight and Investigations; Alan Slobodin, Deputy 
Chief Counsel, Oversight; Tom Wilbur, Digital Media Advisor; 
Brian Cohen, Democratic Staff Director, Oversight and 
Investigations, and Senior Policy Advisor; Hannah Green, 
Democratic Staff Assistant; Elizabeth Letter, Democratic Press 
Secretary; Stephen Salsbury, Democratic Special Assistant; and 
Matt Siegler, Democratic Counsel.

   OPENING STATEMENT OF HON. TIM MURPHY, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Murphy. Good morning. I convene this hearing on the 
Subcommittee on Oversight and Investigations to review the 
implementation of the Patient Protection and Affordable Care 
Act.
    Our witness today is Mr. Gary Cohen, the Deputy 
Administrator and Director of the Center for Consumer 
Information and Insurance Oversight at the Centers for Medicare 
and Medicaid Services. Mr. Cohen, I would like to read you two 
quotes from your testimony before the committee last year. On 
April 24, 2013, when asked by the ranking member for benchmarks 
to measure CCIIO's progress, you responded: and I quote, ``I 
think the keys are that we are on schedule and on track with 
the IT build that were doing, which is clearly an important 
part of this.'' And then you added, ``I think it is just 
important to take a look at each of the steps along the path 
and make sure that we are on track. But I am very optimistic 
and confident of where we are at this point.'' Again, this was 
on April 24, 2013.
    Here is a second quote. On September 19, less than 2 weeks 
before the start of open enrollment, when Dr. Burgess asked you 
if open enrollment would be ready on October 1st, you said: 
``Consumers will be able to go online, they will be able to get 
a determination of what tax subsidies they are eligible for, 
they will be able to look at the plans that are available where 
they live, they will be able to see the premium net of subsidy 
that they would have to pay, and they will be able to choose a 
plan and get enrolled in coverage beginning October 1st.'' When 
pressed further, you responded: ``I have nothing further to add 
to my answer.''
    Now, those unqualified statements that the exchanges would 
be ready by October 1st are now contrasted against what we have 
learned through our investigation since the Healthcare.gov Web 
site failed on launch.
    Mr. Cohen, on April 4 and 5, 2013, just 3 weeks before you 
told this committee that you did not have any question about 
the exchanges being ready on October 1st, the McKinsey Company 
briefed you and a number of other members of the Administration 
teams on this on a number of risks facing the Web site and the 
federal marketplace. Those included late policy, delayed 
designs and building time, and a limited time to test the Web 
site. I would like to know why did you feel confident telling 
this subcommittee on April 24th that everything was on track? 
Similarly, CMS's own emails from the summer of 2013 show that 
CMS officials were worried that Healthcare.gov would ``crash on 
takeoff'' and yet, you again told us in September that everyone 
would be able to go online, select a plan, learn their subsidy, 
and enroll starting October 1st.
    Mr. Cohen, I thank you for being here today, and I know the 
number of times you have made yourself available to testify to 
this committee and I do appreciate that. But it seems like you 
are faced with two alternatives today: either you didn't know 
about the problems with Healthcare.gov when you testified last 
year, or you did, and decided not to inform Congress.
    Now, this is part of a pattern for this Administration and 
the Affordable Care Act that is so disheartening to the 
American people: promises made and promises broken. We have 
spent over $600 million on the Healthcare.gov Web site and the 
Administration gave absolutely no warning that a disaster was 
approaching, and now we know those warnings were obviously 
there.
    The broken promises don't end there. After years of saying 
if you like your plan you can keep it, the president finally 
apologized. And what about the $2,500 in premium savings the 
President promised? We don't hear that promise anymore. And now 
recent news reports have discussed narrow provider networks as 
a consequence of Obamacare. Will Americans still be able to 
keep their doctors? And now we ask, will they be able to afford 
their deductibles?
    This hearing is not just about looking backward and 
determining who knew what about the Web site. But one important 
purpose of this hearing is accountability. So I would like us 
to try and start fresh in 2014, but our ability to do so 
depends on you explaining fully and honestly what you knew and 
what you understood about the development of the exchanges and 
Web site as it was happening, and how that informed your 
testimony last year to this committee. Because, as we have 
often said, this is about more than a Web site. If people are 
to trust and rely on this system, and trust something so 
critically important to a family as their own health care, this 
Administration needs to have an honest and open dialogue with 
the public about the status of the implementation. Promises of 
all is well just don't cut it anymore.
    With the start of coverage just a few weeks ago, there are 
many important issues to examine about how the exchanges are 
operating. If problems are looming, we need to get the facts on 
the table and do something about it before it is too late. Mr. 
Cohen, I hope you will give complete answers today to the 
following questions: Why didn't you tell Congress last year 
about the problems with Healthcare.gov? How many people have 
actually paid their insurance premiums in the exchanges? Of 
those people who have paid their premiums, how many were 
uninsured and how many had their plans actually cancelled? How 
much will the taxpayers end up spending on the Healthcare.gov 
Web site, and where are you getting the money for it? News 
reports have stated that not enough young people are enrolling. 
When will we know about the risk corridors, and whether the 
federal and state exchanges are sustainable?
    [The prepared statement of Mr. Murphy follows:]

                 Prepared statement of Hon. Tim Murphy

    I convene this hearing on the Subcommittee on Oversight and 
Investigations to review the implementation of the Patient 
Protection and Affordable Care Act.
    Our witness this morning is Mr. Gary Cohen, the Deputy 
Administrator and Director of the Center for Consumer 
Information and Insurance Oversight at the Centers for Medicare 
& Medicaid Services. Mr. Cohen, I would like to read you two 
quotes from your testimony before the committee last year:
    <bullet> On April 24, 2013, when asked by the Ranking 
Member for benchmarks to measure CCIIO's progress, you 
responded: ``I think the keys are that we are on schedule and 
on track with the IT build that were doing, which is clearly an 
important part of this.'' And then: ``I think it is just 
important to take a look at each of the steps along the path 
and make sure that we are on track. But I am very optimistic 
and confident of where we are at this point.'' Again, this was 
on April 24, 2013.
    <bullet> Here is a second quote. On September 19, less than 
two weeks before the start of open enrollment, when Dr. Burgess 
asked you if open enrollment would be ready on October 1, you 
said: ``Consumers will be able to go online, they will be able 
to get a determination of what tax subsidies they are eligible 
for, they will be able to look at the plans that are available 
where they live, they will be able to see the premium net of 
subsidy that they would have to pay, and they will be able to 
choose a plan and get enrolled in coverage beginning October 
1.'' When pressed further, you responded: ``I have nothing 
further to add to my answer.''
    Those unqualified statements that the exchanges would be 
ready by October 1 are now contrasted against what we have 
learned through our investigation since the HealthCare.gov Web 
site failed on launch.
    Mr. Cohen, on April 4 and 5, 2013, just three weeks before 
you told this committee that you did not have ``any question'' 
about the exchanges being ready on October 1, the McKinsey 
Company briefed you on a number of risks facing the Web site 
and the federal marketplace. Those included late policy, 
delayed designs and building time, and a limited time to test 
the Web site. Why did you feel confident telling this 
subcommittee on April 24 that everything was on track? 
Similarly, CMS' own emails from the summer of 2013 show that 
CMS officials were worried that HealthCare.gov would ``crash on 
take off.'' And yet, you again told us in September that 
everyone would be able to go online, select a plan, learn their 
subsidy, and enroll starting October 1.
    Mr. Cohen, I thank you for being here today. I know the 
number of times you have made yourself available to testify to 
this committee and I do appreciate it. But it seems like you 
are faced with two alternatives today: either you didn't know 
about the problems with HealthCare.gov when you testified last 
year, or you did, and decided not to inform Congress.
    This is part of a pattern for this administration and the 
Affordable Care Act that is so disheartening to the American 
people. Promises made, promises broken. We have spent over $600 
million on the HealthCare.gov Web site and the administration 
gave absolutely no warnings that a disaster was approaching-and 
now we know those warnings were obviously there. The broken 
promises don't end there. After years of saying that ``if you 
like your plan you can keep it'', the president finally 
apologized. What about the $2,500 in premium savings the 
president promised? We don't hear that promise anymore. Now 
recent news reports have discussed narrow provider networks as 
a consequence of the Affordable Care Act. Will Americans still 
be able to keep their doctors? Will they be able to afford 
their deductibles?
    This hearing is not just about looking backward and 
determining who knew what about the Web site. But one important 
purpose of this hearing is accountability. Mr. Cohen, we would 
like to try and start fresh in 2014, but our ability to do so 
depends on you explaining fully and honestly what you knew and 
what you understood about the development of the exchanges and 
Web site as it was happening, and how that informed your 
testimony last year to this committee. Because, as we have 
often said, this is about more than a Web site. If people are 
to trust and rely on this system, this administration needs to 
have an honest and open dialogue with the public about the 
status of implementation. Promises of ``all is well'' just 
don't cut it anymore. With the start of coverage just a few 
weeks ago, there are many important issues to examine about how 
the exchanges are operating. If problems are looming, we need 
to get the facts on the table and do something about it before 
it is too late. Mr. Cohen, I hope you will give complete 
answers today to the following questions:
    <bullet> Why didn't you tell Congress last year about the 
problems with HealthCare.gov?
    <bullet> How many people have actually paid their insurance 
premiums in the exchanges?
    <bullet> Of those people who have paid their premiums--how 
many were uninsured and how many had their plans cancelled?
    <bullet> How much will the taxpayer end up spending on 
HealthCare.gov, and where are you getting the money for it?
    <bullet> News reports have stated that not enough young 
people are enrolling. When will we know about the risk 
corridors, and whether the federal and state exchanges are 
sustainable?

                                #  #  #

    Mr. Murphy. So I thank you for being here today, and I 
yield now to the ranking member, Ms. DeGette, for 5 minutes.

 OPENING STATEMENT OF HON. DIANA DEGETTE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Ms. DeGette. Well, thank you, Mr. Chairman, and welcome, 
Mr. Cohen, back to this committee.
    I think, Mr. Chairman, we could probably stipulate to the 
fact that Healthcare.gov had a rocky start. There is no doubt 
about that. But I am sitting here thinking, the longer the 
Republicans keep beating the dead horse about who knew what, 
when and all of that, the longer they keep raising these faux 
issues like the fact that they say the Web site is not secure, 
then I think the worst it is going to be for their constituents 
because after all, isn't our desire to encourage people to sign 
up for health insurance, if they are eligible for Medicaid, to 
sign up for Medicaid, if they are eligible for subsidies, to 
get those subsidies to help pay for their insurance?
    As I hear my colleagues on the other side of the aisle talk 
about this, I can't help but wonder if they really do want 
their constituents to have insurance. Last week's vote on the 
floor was a good example where we voted on this bill that said 
that we were going to have security in Healthcare.gov. Now, 
everybody thinks we need to have security in Healthcare.gov but 
the clear impression given during the floor debate and also the 
debate in this committee before that was that somehow 
Healthcare.gov is not secure when in fact there hasn't been one 
breach of Healthcare.gov and, in the briefing we had, the 
federal IT people told us they haven't had any more attempts to 
breach Healthcare.gov than any other Federal Government Web 
site, and of course, private Web sites, like, for example, 
Target, are not exempt from that either.
    And so I just can't help but think that my colleagues on 
the other side of the aisle really don't want to have us 
implement this Healthcare.gov or the entire Affordable Care Act 
in a reasonable way. They want to chill their constituents from 
signing up, and I think that is a darn shame.
    The good news is--and believe you me, I was one of the 
biggest critics on the implementation of Healthcare.gov on this 
side of the aisle. It was rocky. But the good news is, it does 
appear now that people are beginning to enroll in this in a 
robust way.
    Last week, Connect for Colorado, which is our state site, 
announced the figures for my state. We are about halfway 
through the open enrollment period and already 50,000 
Coloradoans have signed up for private insurance on the 
exchange and about 90,000 have enrolled in Medicaid. So this is 
140,000 people who didn't have health insurance before.
    Now, this represents real progress. This represents a 
family that doesn't have to worry about how it will pay for 
treatment if a child gets sick or has an accident. It 
represents moms who can get preventive care from breast cancer 
screenings to vaccines. It represents small businessmen and -
women who don't have to worry about losing their livelihood if 
they have an accident.
    Now, I am proud of my governor, I am proud of my 
legislature, Democrats and Republicans, and I am proud of the 
leaders for Connect for Colorado for getting it up and going. I 
know we are not out of the woods yet. We are going to continue 
to have glitches and we need to address those. But sitting 
around and trying to figure out what happened last fall when 
everybody admits it was a disaster does not help us towards 
fixing this problem in the future.
    I want to say one last thing. The White House released 
enrollment figures for all 50 States earlier this week. The 
national numbers mirror what happened in my State. Over two 
million people have signed up on the exchanges and four million 
people have enrolled in Medicaid. That is six million people 
who didn't have insurance before.
    Now, minority staff released a memo this morning that 
showed Affordable Care Act enrollment is ahead of where the 
Medicare Part D enrollment was at the time that program went 
into effect in 2006. Right now, the Affordable Care Act 
enrollment is at 31 percent of projected enrollment with half 
the open enrollment period to go, and at this point during Part 
D, enrollment had hit only 23 percent of projections, and Mr. 
Chairman, I would ask unanimous consent to put that memo into 
the record.
    Mr. Murphy. Without objection.
    [The information appears at the conclusion of the hearing.]
    Ms. DeGette. Thank you.
    So you know, I didn't vote for Medicare Part D. Most 
Democrats didn't. But we worked together to try to make it a 
success, and I think that is what we should do here.
    One of the things I continue to be concerned about with 
implementation of the Affordable Care Act and the exchanges is 
enrollment of young people. Now, I know everybody says they 
will all enroll at the end but I would be interested to know 
from the Administration what we are doing to make sure we hit 
those targets because the exchanges are not going to work 
without them enrolling.
    So in sum, let us work together to implement this, to get 
our constituents enrolled. Let us not sit around griping about 
what happened admittedly last year.
    Thank you, Mr. Chairman.
    Mr. Murphy. The gentlelady yields back. I now recognize the 
chairman of the full committee, Mr. Upton, for 5 minutes.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Thank you, Mr. Chairman.
    Today we are going to continue our thoughtful oversight of 
the President's implementation of the health care law and its 
effects on Americans in Michigan as well as across the country.
    So Mr. Cohen, we do welcome you back. You have testified 
before the committee a number of times and I appreciate you 
returning again today. In preparing for today's hearing, we 
went back to review the transcripts, as you would imagine, of 
your testimony from last year, and when we asked what to expect 
at the start of open enrollment on October 1st, you assured us 
on two different times, once in April and again in September, 
less than 2 weeks before the launch, that yes, everything was 
on track. And during your more than 4 hours of testimony before 
the committee last year, there was no mention of the fact that 
you had been briefed twice by McKinsey in early April of last 
year and warned about the number of risks facing the 
marketplaces and the Web site nor was there any elaboration on 
the fact that CMS employees were well aware that the Web site 
build was riddled with problems, far behind schedule with the 
October 1 launch in jeopardy.
    So the purpose of today's hearing is not to rehash every 
detail of the failed launch, but to move forward, we have got 
to understand what you knew about the status of the Web site 
and implementation of the President's law at the time that you 
appeared before the committee, looked us in the eye, and said, 
of course, everything was on track. It is time to be candid and 
transparent with Congress and the American public.
    Lots of promises have been made, many have already been 
broken. What is next? The only way the public can trust the 
health care system and the Administration that is implementing 
this law is if Administration officials are open and 
transparent about the facts and what the American people should 
expect from this law and for their health care moving forward. 
Providing facts and specifics is an important first step toward 
restoring the credibility that we all want. The American people 
deserve the peace of mind that there will be no more surprises, 
that the information available is the entire and true story, 
and I know that you will try to help us understand what 
happened and provide some answers, and I yield the balance of 
my time to the vice chair, Dr. Burgess.
    [The prepared statement of Mr. Upton follows:]

                 Prepared statement of Hon. Fred Upton

    Today we continue our thoughtful oversight of the Obama 
administration's implementation of the health care law and its 
effects on Americans in Michigan and across the country.
    Mr. Cohen, welcome back. You have testified before the 
committee a number of times and I appreciate you returning 
again today. In preparing for today's hearing, we went back to 
review the transcripts of your testimony from last year. When 
we asked you what to expect at the start of open enrollment on 
October 1, you assured us on two separate occasions, once in 
April and again in September less than two weeks before launch, 
that everything was on track.
    During your more than four hours of testimony before the 
committee last year, there was no mention of the fact that you 
had been briefed twice by McKinsey in early April 2013 and 
warned about the number of risks facing the marketplaces and 
the Web site. Nor was there any elaboration on the fact that 
CMS employees were well aware that the Web site build was 
riddled with problems, far behind schedule with the October 1 
launch in jeopardy.
    The purpose of today's hearing is not to rehash every 
detail of the failed launch of HealthCare.gov. But to move 
forward, we must understand what you knew about the status of 
the Web site and implementation of the president's law at the 
time you appeared before this committee, looked us squarely in 
the eye, and proclaimed that everything was ``on track.'' It is 
time to be fully candid and transparent with Congress and the 
American people.
    Lots of promises have been made, many already broken. 
What's next? The only way the public can trust this health care 
system and the administration that is implementing this law is 
if administration officials are open and transparent about the 
facts and what the American people should expect from this law 
and for their health care moving forward. Providing facts and 
specifics is an important first step toward restoring 
credibility. The American people deserve the peace of mind that 
there will be no more surprises, that the information available 
is the entire and true story. I hope you will help us 
understand what happened and provide some answers today.

                                #  #  #

    Mr. Burgess. I thank the chairman for yielding, and Mr. 
Cohen, I too want to welcome you back to the committee, and I 
appreciate the time that you devote to our oversight efforts. 
But here is the central question: How in the world can we 
expect people across this country to trust this Administration 
when they have been continually told that everything will be 
ready, and in fact it was not.
    It is pretty clear now that the Administration knew far 
more about the concerns prior to the launch of Healthcare.gov 
before October 1st and yet you came before us on September 
19th, and each time you came to this committee in the past 
year, you promised that Healthcare.gov would be functional 
October 1st. If I recall your recitation correctly, there were 
no contingency plans because none were necessary. You insisted 
to subcommittee members less than 3 weeks before the launch of 
the federal exchange that everything was on track. I will 
stipulate that some parts of Healthcare.gov may be working now 
but they are only working now because a glitch czar had to be 
appointed after the launch of Healthcare.gov. I don't know how 
you feel about that but it upsets me that you came before this 
committee and told us everything was OK. We spent hundreds of 
millions of dollars. You had well over 3 \1/2\ years to get it 
right, and then we have got to appoint a glitch czar to sort 
things out so that people can actually enroll on 
Healthcare.gov? The enrollment numbers, I think, are meager. 
Perhaps you have a different story and you will share that with 
us. But errors, canceled plans, and broken promises, those are 
just the start.
    Now we know that your agency, Health and Human Services, 
and the White House failed to heed internal warnings about the 
lack of readiness of the exchanges. It is my hope that you came 
to this subcommittee prepared to answer your questions. I hope 
you will set the talking points aside. You owe this to your 
superiors at HHS, you owe this so the Secretary, you owe this 
to the President, you owe it to the Congress and, most 
importantly, you owe it to the American people.
    This committee is about oversight. Yes, that requires that 
we look at the past. Yes, that requires that we look to the 
future. I think the problems of the past dictate to us that 
there are going to be significant problems during this first 
year of Healthcare.gov and you need to be prepared to work with 
this committee to mitigate the damage that is going to be 
visited on America's health care system and the American 
people.
    Mr. Chairman, I yield back my time.
    Mr. Murphy. The gentleman yields back. I now recognize Ms. 
Castor for 5 minutes.

  OPENING STATEMENT OF HON. KATHY CASTOR, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Ms. Castor. Good morning, and thank you, Mr. Chairman, and 
good morning, everyone.
    Mr. Chairman, this is our first hearing of the year on the 
Affordable Care Act. Last year in this subcommittee and the 
Health Subcommittee and the full committee, the majority held 
12 hearings on the Affordable Care Act.
    The hearings last year often were frustrating because they 
were not held necessarily to examine exactly what the law is 
doing or to work in a bipartisan fashion to improve the law. 
They were part of an effort to criticize the Affordable Care 
Act, spread misinformation and build support for repeal of the 
Affordable Care Act. The majority's unrelenting focus on 
repealing the Affordable Care Act is one of the reasons I 
believe why this Congress has been one of the most least 
productive in the history of our country.
    But fortunately, we are at a different place today. As of 
today, approximately 10 million Americans have coverage because 
of the Affordable Care Act. Over two million have coverage 
through private plans sold through the marketplaces. More than 
four million have enrolled in Medicaid and now have access to a 
doctor or health services that they did not have before. More 
than three million young adults age 26 and under have coverage 
through their parents' plans, and millions more have coverage 
purchased directly from an insurer. Now, as Ranking Member 
DeGette explained, the rollout of Healthcare.gov was anything 
but smooth, and I directly expressed my displeasure to 
President Obama and Secretary Sebelius. People were relying on 
us, and moving forward, and I know there will still be hurdles 
to overcome over the next few months but the law is working. 
Members who want to repeal the Affordable Care Act will have to 
explain to these 10 million Americans why they should lose 
their coverage and their new rights and their protections, and 
coming from the State of Florida, they are going to have to 
explain to my older neighbors, our parents and grandparents, 
why they want to take away the improvements in Medicare: 
closing of the donut hole, the new preventive care and wellness 
visits that are available and the fact that we made Medicare 
stronger.
    The members will have to explain to the 129 million 
Americans with preexisting conditions why they do not deserve 
the same access to health coverage as everyone else. They will 
have to explain to American women why they want to go back to a 
world where they could be charged more for the same coverage as 
a man, and they will have to explain to people who work in 
blue-collar jobs why they should face higher premiums, and they 
will have to explain to the millions of Americans getting 
coverage for the first time why they would be better off 
uninsured. I do not think my Republican colleagues will be able 
to make this case.
    Mr. Chairman, Republican critics of the law were also 
incorrect about many things but they were right about one major 
fact, that once the Affordable Care Act went into effect, there 
would be no turning back. This law is in effect and it will 
continue to become a part of the fabric of this Nation. It will 
lift millions of American families, provide economic security. 
The Civil Rights Act, the Social Security Act, the original 
Medicare legislation, all landmark laws, were enormously 
contentious in their time. Republican opponents predicted they 
would put this Nation on the path to ruin. They said the Nation 
was not ready for the changes that were coming. They said the 
new rights and protections the laws guaranteed for our fellow 
Americans were not important. And now we cannot imagine our 
country without a basic safety net for our seniors or equal 
rights for all of our citizens.
    In the years ahead, all the hyperventilating about broken 
Web sites, enrollment trajectories and demographic mix will 
quickly be forgotten. Instead, we will look back and wonder how 
we ever had a health system that spent double what every other 
Nation spends per capita while leaving 50 million uninsured and 
allowing rampant discrimination against the people who needed 
the coverage most.
    I hope this hearing will be the start of a productive and 
cooperative session of Congress, and I hope we can start to 
work together on the ACA rather than spending another year in a 
never-ending campaign against a law that is doing enormous good 
for the American people.
    I yield back. Thank you.
    Mr. Murphy. The gentlelady yields back, so I would now like 
to introduce the witness for today's hearing. Gary Cohen is the 
Deputy Administrator and Director of the Center for Consumer 
Information and Insurance Oversight at the Centers for Medicare 
and Medicaid Services. He has served as General Counsel for the 
California Health Benefit Exchange and has served as the 
Director of the Division of Insurance Oversight in CCIIO for 2 
years prior to becoming the Deputy Administrator and Director 
of CCIIO, and I will now swear in the witness.
    Mr. Cohen, you are aware that the committee is holding an 
investigative hearing, and when doing so, we have the practice 
of taking testimony under oath. Do you have any objection to 
testifying under oath? Thank you.
    The Chair then advises you that under the rules of the 
House, you are entitled to be advised by counsel. Do you desire 
to be advised by counsel? In that case, we will swear you in.
    [Witness sworn.]
    Mr. Murphy. You are now under oath and subject to the 
penalties set forth in Title XVIII, Section 1001 of the United 
States Code. You may now give a 5-minute summary of your 
written statement, Mr. Cohen.

  TESTIMONY OF GARY COHEN, DEPUTY ADMINISTRATOR AND DIRECTOR, 
   CENTER FOR CONSUMER INFORMATION AND INSURANCE OVERSIGHT, 
           CENTERS FOR MEDICARE AND MEDICAID SERVICES

    Mr. Cohen. Thank you. Good morning, Chairman Murphy, 
Ranking Member DeGette and members of the subcommittee. I 
appreciate the opportunity to update you on the Affordable Care 
Act and health insurance marketplaces and to talk about the 
millions of Americans who many for the first time are able to 
purchase high-quality affordable health coverage.
    When I appeared before this subcommittee shortly before the 
beginning of enrollment, I said that while we may encounter 
some bumps when open enrollment began, we would solve them. 
Clearly, the problems we encountered in October were far worse 
than I or any of us anticipated. Simply put, the system did not 
work nearly as well as it should have or that we expected that 
it would.
    This wasn't a time to get discouraged. It wasn't a time to 
give up. It was a time to roll up our sleeves and get to work 
and solve the problems, and that is what we did.
    Since that time, we have fixed Healthcare.gov piece by 
piece in a prioritized, metrics-driven manner. The tech team 
fixed the site's software and enhanced the site's hardware to 
improve its capacity, speed and stability. By the end of 
November, Healthcare.gov was able to support more than 800,000 
consumer visits per day with a response time of less than 1 
second and an error rate well below 1 percent.
    Consumers have responded overwhelmingly to the improved 
site. Enrollments in the federal marketplace in December alone 
represent a sevenfold increase over October and November 
combined. By the end of December, nearly 2.2 million people had 
selected plans from the State and federal marketplaces.
    Sometimes we lose sight when we talk about numbers that are 
this big, that these enrollments are more than just numbers. 
They are individual people, many of whom have not been able to 
obtain needed care or had the peace of mind that comes from 
having health coverage for years.
    For example, Nathan Aldridge, a cancer survivor from 
Virginia, now has a plan without having to worry about paying 
more because of his preexisting condition. He had been playing 
for a plan with a $483 monthly premium and a $5,000 deductible. 
Now he has a plan with a $111 monthly premium and a $1,750 
deductible.
    Emily Wright, a university student in Tennessee, enrolled 
through the federal exchange, qualified for a federal subsidy 
and picked a top-tier plan that will cost her only $125 a 
month. She has been able to get an appointment with an 
obstetrics/gynecology practice, the first step before needed 
surgery.
    We hear stories like theirs every day. Because of the 
Affordable Care Act, Americans like Nathan and Emily can be 
confident that the plans offered in the marketplace are high 
quality and affordable.
    The Affordable Care Act standardizes certain essential 
benefits which insurers must offer. These include basics like 
doctor's visits, hospitalizations, prescription drugs, and 
maternity and newborn care. Marketplace plans are designed so 
that consumers can compare plans with similar levels of 
coverage and make more informed decisions.
    Insurers are now prohibited from charging higher premiums 
to enrollees because of their health problems and from charging 
women more than men, making price more fair. At the same time, 
premium tax credits and cost-sharing reductions are helping 
consumers pay for their health care coverage. Of the nearly 2.2 
million marketplace sign-ups so far, nearly 80 percent of those 
consumers are receiving financial assistance.
    Insurers can no longer refuse to accept consumers because 
of a preexisting health condition. With limited exceptions, 
plans are required to enroll individuals regardless of health 
status, age, gender or other factors.
    Finally, insurance coverage is there when people most need 
it because plans can no longer impose annual or lifetime dollar 
limits on essential health benefits. Americans no longer have 
to worry about hitting a prohibitive dollar amount which could 
force a consumer into bankruptcy or cause them to have to 
forego necessary care.
    The health insurance market in 2014 looks dramatically 
different than it did in the years before the Affordable Care 
Act. Now, as with any change this major, there is bound to be 
some disruption, so to ease the transition to the new market, 
CMS is working closely with insurers, consumers and other key 
stakeholders who are working together to ensure that consumers 
have coverage and receive needed medical care.
    In December, CMS announced a number of steps to help 
consumers including requiring insurers to accept payment 
through December 31, 2013, for coverage beginning January 1 and 
giving consumers additional days to sign up for marketplace 
coverage. Insurers have also stepped up with many agreeing to 
voluntarily extend the deadline for consumers to pay their 
first month's premium, and many pharmacies announced plans to 
ensure a smooth transition by providing consumers with 
transitional supplies of prescriptions.
    I continue to believe what I said in September: the 
ultimate story of the Affordable Care Act will not be what 
happened in the early days that the Web site went live or even 
in the first days of January as people used their new coverage. 
The lasting legacy will be people like Nathan and Emily who 
will be able to get the health care they need and have the 
security of knowing they will be able to pay for it because of 
the changes made by the law.
    Thank you, and I welcome your questions.
    [The prepared statement of Mr. Cohen follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Mr. Murphy. I thank the gentleman. The chairman now 
recognizes himself for 5 minutes.
    Mr. Cohen, you testified several times before this 
committee that HHS would be ready by October 1. Can you tell us 
why you were wrong on that?
    Mr. Cohen. When I testified, Mr. Chair, you referred to 
April and in September, and each time I gave you the best 
information that I had and gave you truthful testimony based on 
the information that I had available to me. It turned out that 
the problems that we faced when the Web site went live were, as 
I have said and as everyone knows, just dramatically different 
and bigger than I think what any of us expected.
    As to why we didn't anticipate what was going to happen 
when we went live, I am not sure I know all the answers. I 
think some of the people who are responsible for designing and 
building the Web site might be able to give you better answers. 
I know initially we were overwhelmed by the volume of people 
who came in, but as time went by, that was clearly not the sole 
source of the problem. There were other problems as well.
    Mr. Murphy. But you were there for the briefings, the 
McKinsey report, which we discussed in this subcommittee, the 
disaster that they talked about to a number of people within 
the Administration, so you had that information, but you also 
said you were told something otherwise. So who told you 
otherwise that things would be fine?
    Mr. Cohen. So may I speak for a moment to McKinsey? I 
absolutely attended briefings of the work that the McKinsey 
folks did, and there is no question that they identified a 
number of risks that they saw back in April, whether we would 
be successful come October. At no time did the McKinsey people 
say to us, you are not going to make it or you are not going to 
be successful. They identified a series of risks and they 
identified some steps that they recommended we take in order to 
mitigate those risks and increase the likelihood that we would 
be successful, and I think we did those things, and I think 
that a number of the concerns that McKinsey expressed, for 
example, whether the hub would be working or whether some of 
the larger States like New York and California would succeed 
did not prove to be a problem. The hub has worked very well, 
and New York and California have done very well.
    So I think we took very much to heart what the McKinsey 
people recommended that we do and we proceeded forward and 
tried to, you know, do the best we could to maximize the 
likelihood that we would be successful.
    Mr. Murphy. But again, we have looked at the McKinsey 
report. It was not subtle. It was strongly worded in terms of 
there were serious problems, but in that same month you came 
before us and said things were fine, so who on your staff told 
you that things were going to be OK? Who informed you 
specifically?
    Mr. Cohen. I received regular briefings from the various 
parts of CMS that were responsible for----
    Mr. Murphy. Who was it?
    Mr. Cohen [continuing]. Overseeing the Web site build. The 
person that I heard from the most probably was Henry Chao.
    Mr. Murphy. And Henry Chao told you that despite the 
briefing from McKinsey that things would be OK?
    Mr. Cohen. Henry Chao gave--we had regular reports on the 
status of the build, and certainly when I came here in 
September, the testimony that I gave was based on briefings 
that I had from Mr. Chao and others as to what the capability 
of the site----
    Mr. Murphy. Did you share with Mr. Chao the McKinsey 
briefing?
    Mr. Cohen. I don't know whether he saw the briefing itself.
    Mr. Murphy. Did you discuss the contents of that with him?
    Mr. Cohen. I think we talked about the issues that were 
raised in the briefing, yes.
    Mr. Murphy. See, I am puzzled, because when Mr. Chao was 
here speaking under oath, he said he didn't know anything about 
it.
    Mr. Cohen. That is why I say I don't know that we told him 
or whether he saw the report itself--but we talked about the 
issues----
    Mr. Murphy. So let me ask this. It was significant enough 
that the Secretary said that she hired McKinsey to give them a 
briefing and look at this analysis. Very important, significant 
problems were identified. They were not small. But now we are 
not sure whether or not the key person who was advising you of 
this was even told about this report to identify and what to do 
about the major problems. So there is something pretty 
inconsistent here.
    Mr. Cohen. Well, I think that we adopted a number of the 
recommendations that McKinsey had for us and put into place a 
number of things that McKinsey recommended that we do in order 
to increase the likelihood of our success, and that is what I 
mean. Those things happen. So Mr. Cao was aware of the things--
--
    Mr. Murphy. Well, I need to know what specifically, if you 
go to the doctor and the doctor says can you tell me what your 
specific symptoms and problems are, if you don't tell the 
doctor what your problems are, they can't properly diagnose and 
treat. So what specifically did you tell Mr. Chao and what 
specifically then did he do in response to that?
    Mr. Cohen. I am not going to be able to recall or tell you 
exactly what we told Mr. Chao. What I can tell you is that 
there were recommendations, for example, in the report with 
respect to how we should be organized and some changes that 
they recommended that we make in terms of how the process was 
managed that we implemented as a result of the report.
    Mr. Murphy. Thank you.
    I recognize Ms. DeGette for 5 minutes.
    Ms. DeGette. Thank you very much, Mr. Chairman.
    This hearing today, I just noticed this after my opening 
statement, is called ``2014: Seeking PPACA Answers.'' So I 
would really like to ask you, Mr. Cohen, some questions about 
where we go from here.
    As you acknowledged in your opening statement and your 
written statement, the problems with Healthcare.gov were far 
greater than ones you anticipated before October 1st, and we 
are now well aware of the Administration's efforts to fix the 
problems. I am wondering if you can tell me as we sit here 
today, January 16th, what problems do you still see with the 
federal Web site and what steps is the Administration taking to 
remedy them?
    Mr. Cohen. Thank you. We continue to address specific 
issues with respect to the way that the site is functioning, 
and that effort has not flagged at all. I mean, it is ongoing. 
So as we continue to identify any aspects in the way that the 
system isn't performing as properly as it should, whether those 
be design and architecture or whether those be software, sort 
of coding types of problems that were not getting the right 
result, we continue to address a lot of those issues. The major 
one that we are dealing with right now I would say in terms of 
big picture has to do with the financial management making sure 
that the plans are getting paid. We are using a mitigating 
process right now because we don't have full functionality for 
that particular process but we are working to put that in 
place.
    Ms. DeGette. As we heard in November and December, the 
Administration was focusing first on getting people enrolled 
and then they were worrying about the back end. So with that 
back end, what kind of problems are we still seeing and what 
are you doing to try to remedy that?
    Mr. Cohen. Well, right now, payments will be going out next 
week for the first time of advanced premium tax credits to 
issuers but we are using a process where they are providing us 
with the data from the issuers based on their records as 
opposed to being able to use the records that are generated by 
the FFM, and that more automated process will be going into 
place in the next months.
    Ms. DeGette. And are you working, is the Administration 
working with the insurers to make that happen?
    Mr. Cohen. Yes, absolutely, and we have actually had 
tremendous responsiveness from the insurers and they have told 
us that they are very pleased with the way that process is 
going. It is not ideal but it will work to get them paid.
    Ms. DeGette. Mr. Chairman, I think that would be a good 
follow-up hearing to bring the insurers in and see how that is 
working, just FYI.
    Let me ask you, Mr. Cohen, we have all heard about the 
number of people who have signed up both on the State exchanges 
in the States like mine that have State exchanges and also 
Healthcare.gov. What is your opinion about the number of people 
who have signed up and also the age mix?
    Mr. Cohen. So in terms of the number of people who have 
signed up, obviously there is no question that we got off to a 
slower start than we would have liked and than what we hoped 
but we had tremendous response in December and we are 
continuing to see very good numbers as we go into January. I 
think in terms of the total if we are able to maintain the pace 
that we are at now and if we see another, you know, sort of 
uptick towards the end of March as everyone expects because 
that is the deadline for the end of open enrollment, we still 
have almost 3 months to go so I think we are very encouraged by 
the enrollments that we are seeing now. There clearly is 
tremendous demand for this product. We saw that from the 
beginning.
    Ms. DeGette. But there is also--I will say, though, because 
of the glitches with the Web site in the early days, enrollment 
has been lower than the Administration had projected, correct?
    Mr. Cohen. That is true.
    Ms. DeGette. And what about enrollment of younger people?
    Mr. Cohen. So, you know, we are actually quite encouraged 
by the response that we have gotten from younger people. The 
percentage of younger people that we reported this week is 
actually comparable to the percent of that age group in the 
general population so I think that is looking good. I think----
    Ms. DeGette. If you could just--I am sorry. If you can just 
briefly tell me what the Administration is doing to bump those 
numbers back up between now and the end of March both for the 
general population and also for the younger enrollees.
    Mr. Cohen. Absolutely. So, I think you are going to see a 
stepped-up media campaign. Obviously we as well as the health 
insurance companies held back a little bit in the beginning 
because the site was working well, but now that it is, I think 
we will see a significant increase in that. It is going to be 
very much targeted at the younger audience so we have a Magic 
Johnson ad that is coming out now. We are going to be 
advertising during the Olympics. You know, we are trying to 
advertise in ways that will--and through social media as well, 
ways that are definitely targeted toward that younger group.
    Ms. DeGette. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Murphy. You may want to talk to Jimmy Kimmel because he 
is not saying good things about this.
    Ms. DeGette. We can also have ads during the Super Bowl 
because I know that will appeal to the Colorado voters.
    Mr. Murphy. That will be costly. There you go.
    I now recognize Dr. Burgess for 5 minutes.
    Mr. Burgess. Thank you, Mr. Chairman, and Mr. Cohen, you 
know I am going to bring this up. I have got to do it. I need 
to have you address it.
    September 19, 2013, I asked you a yes or no question, will 
the enrollment process be ready October 1 of this year. I will 
remind you of your answer. You said, ``consumers will be able 
to go online. They will be able to get a determination of what 
tax subsidies they are eligible for. They will be able to look 
at the plans that are available where they live. They will be 
able to see the premium net of subsidy that they would have to 
pay, and they will be able to choose a plan and get enrolled in 
coverage beginning October 1st.'' Do you recall that exchange, 
sir?
    Mr. Cohen. I recall it very well.
    Mr. Burgess. Knowing what you know now, would you like to 
revise that answer in any way?
    Mr. Cohen. Well, clearly, it was wrong, but it was also 
what I believed and what I understood----
    Mr. Burgess. I have got to----
    Mr. Cohen [continuing]. Based on what I had been told. I 
would like to answer your question, if you would permit me.
    I knew that I was going to be asked that question obviously 
when I came here on September 19th and I knew that it was very 
close to October 1st, and I was very careful to get a thorough 
briefing from the people who are responsible for overseeing the 
build of the Web site, and the answer that I gave you was 
exactly what they told me our functionality would be on October 
1st, exactly.
    Mr. Burgess. Who told you that exactly?
    Mr. Cohen. Mr. Chao was in the briefing, among others.
    Mr. Burgess. Well, look, you know, I have just got to tell 
you this, and you have heard me say it before and I will 
continue to say it in the future. I simply do not understand 
why no one has been held accountable for an error that 
egregious. If I were you, I would fire someone under me, and it 
would have happened in October. If I were the Secretary, I 
would have fired you, and that would have happened in October, 
and if I were the President, I would be so mortified and 
embarrassed by what has been the disaster of my signature piece 
of legislation signed into law, I would fire the whole lot of 
you.
    Now, that was the tack not taken----
    Mr. Cohen. But if that had happened----
    Mr. Burgess. I would like to understand why should we 
believe you now when nothing you said over the past year, year 
and a half has been accurate?
    Mr. Cohen. Because the site is working, Congressman. 
Because the site is working. That is why you should believe me 
now.
    Mr. Burgess. I would submit----
    Mr. Cohen. And if we had all been fired, it would not be 
working.
    Mr. Burgess [continuing]. It is not working because it has 
not been built on the back end. Provider payments are not 
flowing. The subsidies that are supposed to go to the insurance 
companies, they tell me are coming as a result of a paper 
process that is having to be entered by hand. This thing is a 
disaster, and the providers are going to be the ones who take 
it on the chin because we are obligated to see those patients 
when they show up. No one can verify benefits at 3 o'clock in 
the morning. You take care of the problem after the fact. Who 
pays the bill? The Secretary said she would not be responsible 
for paying those bills, so I ask you, doctors and hospitals 
around this country are asking you, who is responsible for 
paying those bills?
    Mr. Cohen. The insurance company----
    Mr. Burgess. You haven't built the back end of the Web 
site.
    Mr. Cohen. The insurance company that has enrolled a person 
is responsible for paying those bills, and the payments of the 
tax credits and cost-sharing reductions to those insurance 
companies will be flowing next week. They will begin next week. 
That is going to happen.
    Mr. Burgess. And I would submit to you that part of the Web 
site has not yet been built and that is going by hand and is a 
painfully slow process. I have been told numbers as low as 5 to 
10 percent of those payments are going through. I would 
appreciate if you have additional information that you will 
make it available to the committee. I hope we will have an 
opportunity to discuss that in the future.
    Mr. Cohen. Absolutely.
    Mr. Burgess. As it does concern me a lot. I think our 
providers are the ones who are truly at risk from your 
mismanagement of this problem.
    Now, there is something that is receiving a lot of 
attention right now. It is the concept of risk corridors and 
risk adjustment. Are you aware of that?
    Mr. Cohen. Yes.
    Mr. Burgess. The risk corridor program does not contain 
specific appropriation in the law, so are you going to be 
seeking an appropriation for the risk corridor language in the 
law?
    Mr. Cohen. I am going to have to refer you to the Office of 
Management and Budget with respect to those issues.
    Mr. Burgess. Would you be willing to share with us the 
ongoing discussions that are happening between you and OMB on 
that? Are there e-mails? Are there memos? Is there information 
you can make available to the committee?
    Mr. Cohen. I will certainly take that request back.
    Mr. Burgess. It appears to a lot of us that you are going 
to be needing and sending taxpayer dollars in order to handle 
this problem of the risk corridors. Can you assure the 
committee today that that will not be happening, that this risk 
adjustment will be done from within the balances available in 
the Affordable Care Act and those amounts that you are 
collecting from insurance companies and not come from the 
taxpayer?
    Mr. Cohen. I don't have an answer for you today. I 
understand it is an issue. We are working with OMB and I will 
certainly work with you and understand that it is an important 
issue that you are entitled to know about.
    Mr. Burgess. If you have a legal memorandum that has been 
prepared for you or your department, will you share that with 
the committee?
    Mr. Cohen. That is not a decision I get to make but I will 
certainly take your request back. I haven't seen such a 
memorandum myself, no.
    Mr. Burgess. You have not?
    Mr. Cohen. At this point, no.
    Mr. Burgess. Do you anticipate seeing one?
    Mr. Cohen. I don't know the answer to that.
    Mr. Burgess. This committee needs that memo, and I want you 
to take that request back with you. Again, we will have an 
opportunity to talk again, I believe.
    I yield back, Mr. Chairman.
    Mr. Murphy. Thank you.
    Mr. Cohen, I want to give you an opportunity to answer one 
of Dr. Burgess's questions. Has the part of the Web site 
dealing with payments been built or is it yet to be built?
    Mr. Cohen. The automated process for payments is still 
being built but we have a process in place that is working and 
payments will be going out next week.
    Mr. Murphy. Do you have an anticipated date of when it is 
going to be built?
    Mr. Cohen. I don't have an answer to that as I sit here, 
no.
    Mr. Murphy. Thank you.
    Ms. DeGette. Mr. Chairman, could we have him supplement 
that when he finds out when it will be built?
    Mr. Murphy. Yes, we would like to know that.
    Ms. Castor, you are recognized for 5 minutes.
    Ms. Castor. Thank you, Mr. Chairman. Good morning, Mr. 
Cohen.
    You know, the headline back home in Florida this week was, 
Florida enrollment surges under Healthcare.gov during October 
and November. Due to the problems with the Web site, we only 
had 18,000 Floridians sign up for coverage. But in December, we 
had 140,000 Floridians sign up for coverage. Florida continues 
to lead the Nation in enrollment among the three dozen States 
that are using the federal marketplace. So this is good news. 
In fact, on Monday in Tampa, the mayor of Tampa, Bob Buckhorn, 
had a great announcement, and this is something that other 
Members of Congress can use and work on with their elected 
officials. Mayor Buckhorn announced that all of the parks and 
recreation centers in the city of Tampa would be available to 
host navigators and assisters sign up many of our neighbors for 
coverage. I think this is a very creative move. Secretary 
Sebelius gave him a pat on the back as well.
    We have got to make it easy for folks to sign up, and one 
of the things that is, I guess, a good problem to have is, we 
have such a competitive marketplace in the Tampa Bay area, we 
have over 100 private insurance plans that people can examine 
and see what works best for them. But, you know, that can be a 
little daunting for folks as well if they just go on to--I 
guess there are people that can go on to Healthcare.gov and 
figure it out and analyze it and determine what works best for 
them but there are many, many people all across the country 
that need to sit down and work with a real person and sort 
through those options, understand what the tax credits do. In 
Florida, two-thirds of those who are eligible for coverage will 
be eligible for the tax credits. Already, over 80 percent of 
the people who have signed up have used those tax credits.
    What can we do to get more help out on the ground to help 
people understand the options?
    Mr. Cohen. So thank you, Congresswoman. I think it is very 
important, as you say, to get support from State and local 
officials from Congressional offices to help get the word out, 
to direct people to assisters who can help them. There is a 
Find Local Help section of Healthcare.gov where people can say, 
you know, what area they are in and get a list of the----
    Ms. Castor. But many people, if they don't have a computer, 
they don't even know about that.
    Mr. Cohen. Right.
    Ms. Castor. So how are you going to reach them?
    Mr. Cohen. For the people who don't have a computer, 
obviously the effort really has to be to bring them in to a 
location where, you know, a navigator is working or, you know, 
other assisters are available to help them through the process, 
and I think, you know, the more assistance that we can get from 
people in the community who know these folks rather than, you 
know, just coming from the Federal Government is a big help.
    Ms. Castor. Our community health centers have been very 
active, churches. It is really a community-wide effort. But I 
appreciated that you said talking about the millions of folks 
who have signed up that these are not just numbers, these are 
real people, and really, one of the biggest obstacles right now 
for many of our neighbors to realize health care coverage is 
what Republican governors and State legislators have done in 
blocking the Medicaid expansion. For example, in the State of 
Florida, we have almost one million Floridians who are caught, 
are being blocked, access to the doctor's office is being 
blocked just because they won't accept the $50 billion 
available to the State of Florida over the next 10 years. That 
is our tax money. We want that tax money back to work for our 
neighbors to help our families get to the doctor's office, 
create jobs, help our hospitals.
    Mr. Chairman, I think we need an oversight hearing on these 
States that have blocked Medicaid expansion and what that is 
going to do to the health care marketplace.
    Mr. Cohen, what is HHS's plan to continue to work with the 
States on this issue?
    Mr. Cohen. We certainly encourage every state to take up 
the Medicaid expansion. It is a great deal for the state. It is 
a great deal for the people in the state. It is a great deal 
for providers in the state who will see a decrease in 
uncompensated care, a tax that falls on all of us, and we have 
been working as creatively as we can with different States to 
come up with different ways of doing this. Some States have 
some different approaches that they wanted to take that we have 
been working with them on, so we continue to work with all the 
States and hope that more will take up the expansion.
    Ms. Castor. Thank you very much.
    Mr. Murphy. The gentlewoman yields back. Now the vice chair 
of the full committee, Ms. Blackburn, for 5 minutes.
    Mrs. Blackburn. Thank you, Mr. Chairman.
    Mr. Cohen, you just said that your testimony to Mr. Burgess 
on September 19th was incorrect and you had based it on staff 
reports. Am I correct in that?
    Mr. Cohen. I said it turned out to be wrong.
    Mrs. Blackburn. Turned out to be wrong.
    Mr. Cohen. It turned out to be wrong.
    Mrs. Blackburn. Let me ask you this then. If you are basing 
your testimony today on staff reports, how do we know that this 
is correct?
    Mr. Cohen. I think that there has been an intense focus 
since October on----
    Mrs. Blackburn. Have you changed your process of due 
diligence? Are you vetting? Are you questioning?
    Mr. Cohen. I think we are receiving more and more thorough 
briefings at the leadership level.
    Mrs. Blackburn. How do you know that? If what you told us 
on September 19th was wrong, how do you know that what you are 
telling us right now is correct?
    Mr. Cohen. Well, ultimately, I have to rely on the people 
who work for me. I don't----
    Mrs. Blackburn. You didn't fire anybody then. Are you 
watching it more closely now?
    Mr. Cohen. I think we are having regular and very detailed 
briefings on----
    Mrs. Blackburn. OK.
    Mr. Cohen. And we also brought in what we sort of call the 
general contractor, the QSSI company that was an existing 
contractor on the project.
    Mrs. Blackburn. Do you want to quantify those briefings for 
us as you submit things about the Web site and when it is going 
to be due? Why don't you let us know what briefings you are 
having?
    Also, I want to ask you one thing real fast. You said the 
Web site is fixed. Can you define ``fixed?''"
    Mr. Cohen. I think the Web site is fixed in the sense that 
we are no longer having problems that we had creating accounts 
in the beginning. The responsiveness of the site----
    Mrs. Blackburn. So it is not 100 percent operational, it is 
a qualified fix?
    Mr. Cohen. That is true.
    Mrs. Blackburn. OK. So it is fixed as an amoeba, and that 
is going to change as you come back to us.
    Let me move on. You had three promises in Obamacare. It was 
built on three promises. It was going to save families $2,500 a 
year, and the second two promises, one, if you like your plan, 
you can keep it, and if you like your doctor, you can keep it. 
So let me ask you this. Since the President promised that the 
average family would reap a premium decrease of $2,400 a year 
under the law, has that happened?
    Mr. Cohen. Well, I am not sure that is what the President 
said.
    Mrs. Blackburn. Yes or no. Oh, yes, he did say it.
    Mr. Cohen. I am not sure that is what the President said.
    Mrs. Blackburn. Yes, sir, he did say that.
    Mr. Cohen. Many Americans are able to obtain better 
coverage at lower costs than----
    Mrs. Blackburn. Mr. Cohen, that is not what the President 
said, and I ask for a yes or no answer.
    Let me move on. The President said if you like your plan, 
you can keep it. Has he kept that promise?
    Mr. Cohen. The law permitted insurance companies to 
maintain grandfathered plans in effect. That was their decision 
whether to continue with those plans or to----
    Mrs. Blackburn. No, sir, that was not the promise. The 
President even apologized for this, and he offered some 
enforcement relief so that these people could keep the plans 
they liked. Is that correct?
    Mr. Cohen. I was about to say that not all Americans were 
able to keep their plans because of the decisions that the 
industry had made, and so we announced a transitional policy 
that enabled more of the plans to stay in effect.
    Mrs. Blackburn. How long will that transitional process 
last? A year, 2 years, forever?
    Mr. Cohen. As of now, what we have announced so far is it 
is for a year.
    Mrs. Blackburn. You know, a lot of those people couldn't 
keep their plans, and you talked about an Emily from Tennessee. 
Let me tell you about another Emily from Tennessee. Emily lives 
in Pulaski. Emily had coverage because Emily has lupus, and 
guess what? Under Obamacare, her plan was canceled. Emily 
doesn't have health insurance right now. She is having a tough 
time getting it under Obamacare. I am having her in as my guest 
for the State of the Union. Maybe you can help Emily work this 
out, Mr. Cohen, because your promises that were made by you and 
this Administration have not been kept, and then you want to 
give us a qualified definition of ``fixed'' and you are still 
depending on your staff, so you all are just running in 
circles, and you cannot give us definitive answers.
    So let me ask you this. Emily in Pulaski, she had a doctor 
she liked. Is she going to be able to keep that doctor even 
though she has no insurance and because of Obamacare her 
insurance was canceled and she is trying to be treated for 
lupus and work 40 hours a week?
    Mr. Cohen. You know, if you will get us information about--
if Emily is, you know, interested in talking to somebody from 
CMS who can help her understand what her options are----
    Mrs. Blackburn. I appreciate that very much.
    Mr. Cohen. We would be happy to do that. We are doing----
    Mrs. Blackburn. Because she is a classic victim of what has 
happened when the Federal Government stepped in and said all 
these plans that you have that work for you, that fit for you, 
we are not going to let you keep them because we the Federal 
Government think we know better how you, Emily, can handle your 
lupus. Now, that is what you have done to the American people, 
and when you come in here, you give us misinformation, and then 
when we ask you a question, you cannot be specific.
    Mr. Cohen, I agree with Dr. Burgess. You ought to be fired.
    Mr. Murphy. The gentlelady's time is expired. I recognize 
now the gentleman from Vermont, Mr. Welch, for 5 minutes.
    Mr. Welch. Thank you, Mr. Chairman.
    Mr. Cohen, there are a lot of things in the Affordable Care 
Act but many of those provisions are about consumer protections 
to ensure that Americans do have a diverse choice of health 
care providers. But as with many new laws, there are some 
wrinkles in the implementation and some disagreement between--
debate about Congressional intent, and I wanted to ask you 
about one of those with respect to the ACA.
    I have been hearing from some providers, and I know some of 
my colleagues have been hearing the same concerns about the 
interpretation of the provider non-discrimination provision in 
Section 2706 of the Public Health Service Act, and 
specifically, what some of these providers are telling me is 
that your agency's sub regulatory guidance, in their view and 
in the view of many legislators, is inconsistent with the 
statute and legislative intent, and the concern is this, that 
the guidance could lead in fact to discrimination against some 
providers by health insurers, which this provision was designed 
to prevent. Are you aware of these concerns? And my question 
is, what are your plans to address them and to ensure that the 
statute is implemented as intended?
    Mr. Cohen. So thank you, Congressman, and yes, I am aware 
of those concerns. I have had meetings with a number of 
provider groups who have expressed the concern that you have 
raised. Frankly, it has been a while since we looked at that 
issue so what I would ask is that we could have folks talk to 
you and your staff and move forward to understanding what the 
concerns are and seeing whether there is something we can do to 
clarify the guidance so that we make sure that there isn't 
discrimination, which clearly is what the law----
    Mr. Welch. Well, that would be helpful, and there may be 
some colleagues on the other side of the aisle as well who are 
hearing some of these concerns, so I would welcome the 
opportunity to follow up with your agency and try to work this 
out to make certain that we stay on that intent that there not 
be discrimination as to providers.
    Mr. Cohen. We would be happy to do that.
    Mr. Welch. Thank you. And just a couple of things. You 
know, one of my concerns from the very beginning is, we have 
got to get health care costs down. I don't care how we pay for 
it, whether it is employer based, taxpayer based, individual 
based. If the cost is going up a lot faster than wages, profit 
and growth, we are just not going to have a sustainable and 
affordable system, and what we are learning now is that 
Medicare spending is growing slower than the inflation rate. 
This is recently, and that is a welcome development, that the 
program spent only .7 percent more per beneficiary in 2012 than 
in 2011. Five years ago, that annual increase was 5.4 percent. 
Overall, just an overall global health care spending, the rate 
of increase has slowed. It was 3.7 percent in 2012, less than 
half of the growth year a year ago. Two questions. One, do you 
attribute any of this to the law? And number two, what are the 
implications for the deficit over a 10- to 20-year period?
    Mr. Cohen. So I think that the law does contain a number of 
provisions that are attacking the question of health care 
costs. I think that that is an issue that we need to continue 
to work on, and I think that the law does give us some tools to 
continue to do that. I look forward to using our process of 
certifying qualified health plans going forward. We were quite 
liberal, I guess is the word I would use. We sort of took them 
all the first year to get the market up and running, but I 
think going forward we can at least look at what we can do to 
encourage health insurance companies to work to keep costs 
down, and certainly, you know, we know that health expense is a 
huge part that the American economy and the Federal Government 
spends so as we are able to attack that problem, it will have a 
great positive impact on spending and the deficit going 
forward.
    Mr. Welch. Yield back.
    Mr. Murphy. The gentleman yields back. I now recognize Dr. 
Gingrey for 5 minutes.
    Mr. Gingrey. Mr. Cohen, thank you for being with us once 
again. I asked you the last time you were here whether you had 
concerns that young people would not sign up for Obamacare and 
would cause an increase in cost to the rest of the risk pool in 
the following years. You responded that your research--this is 
a quote--``research shows that most people want health care and 
the barrier has been the cost,'' and that you are looking 
forward to people, including young people, enroll in coverage.
    With the latest figures showing that young people are 
enrolling at a much lower rate than you had originally 
anticipated, are you now worried, are you still worried that 
premiums will increase next year, that it is not just the 
natural tendency for young people, indeed, for all of us to 
procrastinate that there are some other concerns such as maybe 
these overwhelming number of mandates which we knew 10 years 
ago were driving up the costs of healthcare insurance in the 
individual States, probably all 50 States, including mine of 
Georgia. We knew these age banding rules that were put in 
Obamacare rather than, say, five to one maximum premium 
increase for older people compared to younger is now three to 
one. Community ratings, these things are there, and I am real 
concerned. Do you continue to be concerned about that?
    Mr. Cohen. Well, we certainly want to do everything we can 
to encourage all Americans and in particular young Americans to 
get health care. I think it is important to keep in mind that 
the risk pool is not just the risk pool in the marketplaces, 
the risk pool is in the entire market, and so when you have, 
say, three million young people who have been able to get 
health coverage on their parents' plans, those are not 
necessarily in the marketplace but those are three million 
young Americans who didn't have insurance before who do have 
insurance and are part of the risk pool.
    I also would just point to a recent study by the Kaiser 
Family Foundation, which actually said that a reduction in the 
percentage of people, young people who come into the risk pool 
really will have an impact on health care premiums that is 
pretty modest.
    Mr. Gingrey. Of course, some of that is anecdotal. I 
understand what you are saying.
    But let me move to my next question. You know, I am 
concerned, I have heard that navigators are actually going door 
to door, and this came up last time too, and you said that 
navigators would not be going door to door. They are. And if 
you recall during that same hearing, you told us, this 
subcommittee, that you would be ``issuing instructions to 
navigators that they should not be going door to door.'' Did 
you issue these instructions?
    Mr. Cohen. Yes, we have, and if you are aware of instances 
where navigators who are, our grantees are going door to door, 
we certainly want to hear about those.
    Mr. Gingrey. Well, I thank you, because I am aware, and I 
would like to ask staff to put up a brief clip of a video right 
now in regard to that since you asked me to show you some 
evidence.
    [Video shown.]
    Mr. Gingrey. OK. That is good.
    Mr. Cohen, what do you say to that?
    Mr. Cohen. I had not seen that before, and we will look 
into it. Thank you for calling it to our attention.
    Mr. Gingrey. Well, I hope you will look into it. I mean, 
some of my colleagues, we are very strong in saying that you 
should be fired. I don't know. My dad told me one time when I 
was in college and my grades came in and they weren't so good, 
and I said Dad, I am doing the best I can, and he said son, 
unfortunately, your best just isn't good enough. I am not 
calling for you to be fired but we are concerned. You have a 
big job. You have got a huge responsibility, and you know that 
and we know that, and back to the drawing board, you have got 
to do better, absolutely.
    With that, Mr. Chairman, I yield back.
    Mr. Murphy. Mr. Yarmuth, you are recognized for 5 minutes.
    Mr. Yarmuth. Thank you, Mr. Chairman.
    Mr. Cohen, welcome back, and it is good to see you again. I 
would like to start off by getting something clarified for the 
record. This relates to Ms. Blackburn's questioning. It is my 
recollection that what the President said was that after the 
Affordable Care Act was implemented, that insurance premiums, 
people would save $2,400 a year as opposed to what they would 
have been spending, compared to what they would have been 
spending if it weren't for the passage of the Affordable Care 
Act. Is that your recollection of what he had said?
    Mr. Cohen. That is my understanding of what he said, yes.
    Mr. Yarmuth. Not that people's insurance would cost $2,400 
less?
    Mr. Cohen. That is my understanding, correct.
    Mr. Yarmuth. And in fact, as has been alluded to earlier in 
the various questioning, health care costs are rising at a much 
lower rate than they have historically. So while the numbers 
may not be precise, there is evidence to suggest that the 
President was actually correct in that insurance would have 
cost more if it weren't for the Affordable Care Act.
    Mr. Cohen. I think there is no question about that, and I 
think it is also true that many Americans are seeing actual 
reductions in what they are paying over what they were paying, 
not every American but many Americans are.
    Mr. Yarmuth. Right. Let us talk about the enrollment 
history because, first of all, it gives me an opportunity to 
boast about my State, Kentucky, which is widely recognized as 
having had one of the most successful rollouts of the 
Affordable Care Act. Currently, the numbers are, in a State of 
4.4 million people, 778,000 visitors to Kynect, our Web site, 
123,000 plus have enrolled in either Medicaid or private plans. 
Five hundred and fifty-nine thousand Kentuckians have been 
screened to determine whether they were eligible for either 
Medicaid or subsidies under private insurance, and many of 
those have not yet selected their plan, even though they have 
been told that they qualify for private insurance, and 1,283 
small businesses--this is as of January 2nd--have started the 
process to enroll their employees as well. So we are talking 
about already having insured about 20 percent or more of our 
entire uninsured population in just over half the--well, this 
would have been exactly half the enrollment period.
    And by the way, 40 percent of those are under 35, so in 
terms of Kentucky's experience, I think there is reason to be, 
as you said, optimistic that going forward, we will have 
adequate numbers of young people in the risk pools and we 
shouldn't be too concerned yet about that.
    But a couple weeks ago, in one of the major national media, 
there was a chart that actually broke down the enrollments 
according to three categories of States. They had the 14 States 
and the District of Columbia, which had both expanded Medicaid 
and set up their own exchanges, States that have expanded 
Medicaid using the federal exchange, and then States that had 
not expanded Medicaid, and while I didn't do the math, it was 
pretty clear that at least two-thirds and maybe even 75 percent 
of all the enrollments, the six million or so enrollments, were 
in those 14 States plus the District where there was concerted 
government support for the program.
    So I would like you to comment that and whether you are 
seeing that the degree of enrollment seems to be correlated to 
the degree of support at the State and local level for the 
program.
    Mr. Cohen. I think that is absolutely right, and it is true 
for many reasons. Kentucky is a great example where Governor 
Beshear has been just a stalwart advocate for health care 
reform and for the Kentucky marketplace and getting it going. I 
think that contributes to the success that those States have 
had in terms of developing their marketplace and their IT 
systems. If the administration in the State is solidly behind 
that, it helps. It certainly helps with the outreach. It helps 
with sending out positive messages to people and to the 
community of how important this is and what a great benefit 
this is for people, so I think there is no question.
    Mr. Yarmuth. Now, we saw video there of navigators going 
door to door. There is another side of that coin as well, and I 
know I have talked to some people, for instance, in Florida 
where they have actually been handing out flyers discouraging 
people from signing up. Have you seen much evidence that there 
is a concerted effort to actually discourage people from 
exploring their options under the exchanges?
    Mr. Cohen. You know, I have heard some of that. I wouldn't 
be able to say how extensive it is. I think obviously it is 
very unfortunate that anybody would try to discourage people 
from taking advantage of an opportunity to get health care.
    Mr. Yarmuth. Just the last question: Is there any effort in 
your organization to try to find out or get evidence as to 
whether that is happening or not? Because that would, I think, 
be of interest to us.
    Mr. Cohen. I don't know that we are investigating that 
within CCIIO, no.
    Mr. Yarmuth. Thank you. I yield back.
    Mr. Murphy. Thank you. I now recognize Mr. Olson for 5 
minutes.
    Mr. Olson. I thank the Chair, and welcome, Mr. Cohen. I 
hope you had an enjoyable holiday season like I did with my 
family.
    Mr. Cohen. Thank you.
    Mr. Olson. My first question is about a thing called the 
Federally Facilitated Exchange User Fees. Are you familiar with 
that fee, sir?
    Mr. Cohen. Yes.
    Mr. Olson. OK. So as you know, it is a fee that is imposed 
upon states that have chosen not to create their own health 
care plan, but to be in the federal health care plan, such as 
my home State of Texas. This fee is required under the 
Affordable Care Act?
    Mr. Cohen. I think it is authorized by the law, and we set 
the fee on insurance companies based on the premium that they 
get in the market.
    Mr. Olson. Would it surprise you that an HHS rule in 
November of 2012 created and authorized that fee?
    Mr. Cohen. Yes, we issued a rule that implemented that 
provision.
    Mr. Olson. Is it 3.5 percent?
    Mr. Cohen. Yes.
    Mr. Olson. Is the Administration fully using that fee? Or 
do the plans and States have to cover some slack?
    Mr. Cohen. I don't believe that the amount of that fee will 
fully cover the cost of operating the Federally Facilitated 
Marketplace. I don't think it is going to be enough to pay all 
of the costs of running the marketplace.
    Mr. Olson. So you are tapping the resources of the private 
sector, the States to pay the shortfall from this fee that is 
not getting the job done, correct?
    Mr. Cohen. No, no. We are tapping resources from within our 
budget, but the fee is the fee.
    Mr. Olson. OK. And the fee is authorized for one year. Do 
you expect to extend it next year?
    Mr. Cohen. Yes, I expect there will be a fee next year.
    Mr. Olson. OK. My second line of questions are about the 
navigators, and as you know, that video from my colleague, Mr. 
Gingrey, was pretty damning. You may recall when you were here 
September 19th when I asked you about the navigators back home 
in Texas, that there was voter registration cards going door to 
door, and you said, and this is a quote, about the navigators: 
``We will be issuing instructions to navigators that they 
should not be going door to door.''
    My question is, and I'm serious. Have you issued those 
instructions? Yes or no.
    Mr. Cohen. Yes.
    Mr. Olson. Can we get a copy of those instructions?
    Mr. Cohen. I am sorry?
    Mr. Olson. May we get a copy of those instructions so we 
can see them?
    Mr. Cohen. Sure. I can go back and tell you how we 
communicated that. I know we have regular communications with 
the navigators and we put out that information to them, that 
that was something that they were not supposed to go door to 
door to enroll people. They could drop off information but they 
were not supposed to go door to door to enroll people.
    Mr. Olson. We have heard stories from New York and Florida 
and the New York Times that people, about all the fraud that is 
coming out with these navigators. What has CCIIO done to 
address these fraud cases and make sure fraud doesn't happen? 
Because it is a big window of opportunity for people who want 
to do harm.
    Mr. Cohen. Any situation that we have learned about that 
involves any misconduct by a navigator, we have responded to. 
We have--including requiring individuals that were involved to 
be dismissed and not to serve as navigators, and including 
issuing corrective action plans to any navigator organizations 
that if we feel that they are not supervising their employees 
adequately.
    Mr. Olson. My final question is about the disastrous 
rollout of Obamacare and its continued problems. Delays and 
misinformation are happening today all over America. For 
example, I enrolled in the D.C. exchange shop, as did my staff. 
My wife called up last week trying to make sure we could keep 
this one doctor we like, a specialist. It took her 30 minutes 
to talk to somebody on the phone, and she was asked to read her 
new information. She got her new Care First card there, read it 
proudly, and they said, we have no record of that. So she had 
to get the old card and work through this agency to be 
confirmed that yes, we could keep that doctor on our plan.
    And so my question is, given this disastrous rollout and 
the continued problems, have you ever been part of a 
conversation, debate, or discussion about delaying the launch 
or putting a hold on it while dealing with all these problems? 
Any discussions? Have you ever been part of that?
    Mr. Cohen. No.
    Mr. Olson. No. OK. I yield back the balance of my time. 
Thank you.
    Mr. Murphy. Thank you. Mr. Green, you are recognized for 5 
minutes.
    Mr. Green. Thank you, Mr. Chairman, and again, welcome 
back, Mr. Cohen. I was shocked to see the news report in New 
Orleans, because in Houston, our navigators do not go out and 
go door to door. We do have nonprofits that are not federally 
funded who are going in, and I am encouraging them to come into 
our district to go out and let folks know they have this 
ability to do it, but the federal navigators we have, now, they 
will come out to someone's house but it will be a request or 
because they need to somebody to help with the family or 
something. So I am glad you are going to investigate that 
happening because I want navigators actually helping people do 
the paperwork.
    As one who supported the Affordable Care Act and continues 
to, we need the law, and I would love our committee to be able 
to work on it and fix some of the flaws that we have in that we 
have discovered, but I am pleased with the enrollment increases 
in the last few weeks. HHS released them earlier this week, and 
we know that nearly 2.2 million have signed up for the private 
insurance plans through the federal and State marketplaces as 
of December 28th. Four million more were signed up for 
Medicaid, and let us not forget that three million adults under 
26 are still being able to get insurance through their parents.
    Do these enrollment estimates sound accurate to you that we 
received?
    Mr. Cohen. Oh yes, I am sure they are as accurate as we can 
make them.
    Mr. Green. They are not as much as we would like, and I 
know the Administration, but I have a memo from my Democratic 
staff on our committee that puts these numbers in context. 
Enrollment in the Affordable Care Act exchanges is ahead of the 
Part D enrollment at a similar time in 2006. Republicans then 
called Part D a success. Now they insist the Affordable Care 
Act is a failure. We still have a lot more work to do in the 
months ahead but there is no doubt that a lot of people are 
finding access to quality, affordable health care. I hope my 
Republican colleagues will sit down and work on legislation 
that will fix some of the problems we have because nothing 
Congress ever passes is perfect, and we know that, and 
particularly with this. Instead of just throwing rotten apples, 
maybe they should look back on what happened in 2003 when we 
passed the prescription drug plan that I didn't vote for but I 
was also helping my seniors sign up for it and encouraging 
people to do it, even though I thought the law was flawed in 
2003. Some of it has been fixed by the Affordable Care Act but 
it has--we want to make sure those folks get it, and that is 
what amazes me.
    Mr. Cohen, based on Massachusetts' experience with 
implementing health reform, what would you expect enrollment 
numbers to look like over the next few months?
    Mr. Cohen. I think we are very encouraged by what we saw in 
December. I think we are encouraged by the tremendous interest 
that there remains in the plan. Clearly, Americans are now very 
much aware of Healthcare.gov as a result of what has happened 
over the last few months, and I think everyone expects that as 
we move toward the--we still have 2 \1/2\ months left to the 
open enrollment period and I think everyone expects as we get 
towards the end of March when it is the real deadline, we will 
see another real uptick in the number of people enrolling, and 
if that happens, I think we will have some very good total 
enrollment numbers by the end of the period.
    Mr. Green. Well, we know that in the federal exchanges, 
seven times the amount of people signed up in December as did 
in October and November. Frankly, part of it is because of the 
Web site, and a lot of have concerns because that Web site was 
down. We did an event in Houston in the middle of November and 
we actually had about 800 paper applications, and we had plenty 
of applications--I know there was an issue--we had paper 
applications both in Spanish and English that were used. But 
that is not the way we can get to the numbers we need. The Web 
site has to work.
    Finally, can you talk about outreach plans the 
Administration has in place to ensure that as many people as 
possible learn about the signup for the new health coverage 
during the remainder of the enrollment period?
    Mr. Cohen. I think we will be seeing significantly more 
paid media. I know there is a plan, as I mentioned, to 
advertise during the Olympics and other events that are 
particularly geared toward younger people, sporting events and 
those kinds of things. I know the social media activities are 
very much picking up, and I think from what I am hearing, we 
are going to be seeing very significant investment by the 
private health plans in marketing and advertising as well. A 
number of them sort of held back because of the issues early on 
with the Web site, but now that they see the enrollments are 
coming through, I think we will see significant investment on 
outreach on their part as well.
    Mr. Green. Thank you, Mr. Chairman.
    Mr. Murphy. The Chair now recognizes Mr. Griffith for 5 
minutes.
    Mr. Griffith. Thank you, Mr. Chairman.
    Mr. Cohen, thank you for being here. In your responses to 
Ms. Blackburn, you indicated that many Americans have better 
plans at a lower cost. Do you recall indicating that to her?
    Mr. Cohen. Yes.
    Mr. Griffith. Under oath and in your sworn----
    Mr. Cohen. Yes. Many Americans have better coverage than 
what they had before and it is costing them less. I think I 
mentioned at least one of them in my oral testimony.
    Mr. Griffith. Yes, you did, and you actually mentioned a 
couple, one of them from my district, and I understand that.
    Also, you would have to acknowledge under oath that many 
Americans have lesser coverage at a greater cost. Isn't that 
true?
    Mr. Cohen. No, that is not what I said. What I said was----
    Mr. Griffith. It isn't what you said. I am asking----
    Mr. Cohen. For some----
    Mr. Griffith. Yes or no. I am asking you a question under 
oath.
    Mr. Cohen. I don't believe----
    Mr. Griffith. Do you know that many Americans have lesser 
coverage under the Affordable Care Act at a greater cost than 
they had before? Isn't that true?
    Mr. Cohen. No, I don't know that.
    Mr. Griffith. You don't know that? Well, let me tell you, I 
received an email today from a constituent of mine who I know 
very well. His premiums in March are going to triple, and his 
deductible is doubling. That is lesser coverage at a greater 
cost. So there is one.
    I will tell you that I have received numerous 
communications from members of my district, people who live in 
my district, along those lines and yes, there are some winners 
but there are also many losers, and it shocks me that you 
cannot acknowledge that here today when you are testifying 
under oath in front of this committee. There are losers under 
Obamacare, aren't there?
    Mr. Cohen. Can I answer?
    Mr. Griffith. Well, it is a yes or no. You know that there 
are losers under Obamacare, do you not?
    Mr. Cohen. If I am not allowed to answer, then----
    Mr. Griffith. The answer is either, yes, you know that 
there are losers, or no, you don't know that there are losers. 
It is a yes or no, sir.
    Mr. Butterfield. Will the gentleman yield?
    Mr. Griffith. I will not yield. The witness is not being 
responsive.
    Mr. Butterfield. I think you need to define ``losers.''
    Mr. Griffith. A loser is one who has to pay more for 
coverage that is lesser, and I just gave him an example but he 
won't acknowledge that he knows of anybody in the--do you know 
of anybody in the United States in that circumstance, sir? Yes 
or no.
    Mr. Cohen. I am sure there is somebody in the United States 
in that circumstance, yes.
    Mr. Griffith. And do you acknowledge that you have read the 
reports on other people who have had some successes who are 
winners under this, you have also read reports in the media of 
people who are losers under Obamacare, have you not?
    Mr. Cohen. The problem that I have, Congressman, is that I 
don't know what all the options are that might be available to 
that person. So it is difficult for me to answer without 
knowing the full situation of what might be available to that 
person. I understand that there are people who had coverage and 
received a notification from their insurance company that they 
were being put into a different plan that costs more. 
Absolutely that has happened.
    Mr. Griffith. And you have reason to believe that those 
people are paying more and receiving lesser coverage?
    Mr. Cohen. Well, I don't know the details of what the plan 
is that they were in, what the details of the plan is that they 
were being offered, and I don't know the details of what other 
plans might be available to them that might enable them to 
avoid that situation. So I think it is a little more complex 
than you are presenting it to me and that is all.
    Mr. Griffith. Well, and I would submit that it is more 
complex on all of these situations because we have a 2,000-
some-page bill that is very hard for people to get their arms 
around and it is very hard for this Administration apparently 
to operate and to run.
    That being said, let us talk about the SHOP exchanges for 
small businesses. That is another part of the plan that has 
been delayed for a year. Is that correct?
    Mr. Cohen. The online capability for SHOP is delayed for a 
year, yes.
    Mr. Griffith. And many of the other delays were for a few 
weeks or months. Why was this program delayed for a year?
    Mr. Cohen. Given everything that we needed to do to get the 
system working well for people in the individual market, we 
made a decision that in terms of allocation of resources, we 
couldn't get the SHOP online functionality built in time for 
this year and so we are relying on the traditional agents and 
brokers who historically have always been the way that----
    Mr. Griffith. It was a complicated situation that you had a 
hard time getting your arms around, and maybe if you sat down 
and learned all the aspects of it you could advise----
    Mr. Cohen. No, we had to make a choice. We had to decide 
what to devote our resources to.
    Mr. Griffith. I was being sarcastic. I apologize.
    Mr. Cohen. I know you were.
    Mr. Griffith. Here is my problem, and this happens so often 
with this. The delay was announced the day before Thanksgiving, 
wasn't it?
    Mr. Cohen. I believe you. I don't remember but I believe 
you.
    Mr. Griffith. OK. Do you know if there were conversations 
before that day before Thanksgiving announcement? How long in 
advance was the decision made to delay the SHOP plan?
    Mr. Cohen. I am sure that there were conversations before 
it was announced. I wouldn't be able to tell you exactly when 
but I know that into November there were conversations, and 
then a decision was made and then it was announced.
    Mr. Griffith. There is a great concern for a lot of us that 
a lot of these announcements come--we have even made comments 
in other hearings that these announcements come at holidays so 
that people will be doing other things and won't pay attention 
to the fact that there has yet been another delay, another 
failure in the rollout of this program.
    Do you agree that that is not an appropriate way to run the 
operation and it really ought to be coming out when people can 
know what is going on instead of during the holiday time when 
nobody is paying attention?
    Mr. Cohen. Well, I would agree with you that it is very 
important that we put out accurate information so that people 
could understand what is happening with the program, yes.
    Mr. Murphy. The gentleman's time is expired. I now 
recognize Mr. Tonko for 5 minutes.
    Mr. Tonko. Thank you, Mr. Chair, and thank you, Director 
Cohen, for your testimony once again before the subcommittee. I 
believe we should have civil discourse with you, and so I will 
try to conduct myself accordingly.
    Before I get to my questions, I just wanted to share with 
the committee an Obamacare success story that I recently 
received from a constituent. Brian from the city of Schenectady 
wrote to me that he had been paying almost $360 per month for a 
plan with no dental or vision coverage. Through New York 
State's online exchange, he was able to get a comparable 
medical plan and also purchase dental coverage for $290 per 
month. As he described it to me, this is more coverage for less 
money. Brian was able to complete the process in less than 2 
hours, and because he makes only $11 per hour, the difference 
in premiums is having a huge impact on his budget. Brian is not 
alone. As of January 1, more than 241,522 New Yorkers were now 
enrolled in quality, low-cost health insurance coverage through 
my home State's exchange.
    In addition, more than 6,500 young adults in my district 
now have health insurance through their parents' plan, and more 
than 12,100 seniors in the district receive prescription drug 
discounts worth $16 million. One hundred and twenty-four 
thousand seniors in the district are now eligible for Medicare 
preventive services without paying any copays, coinsurance or 
deductibles. I could go on and on but the point is that the 
Affordable Care Act is here to stay and it is providing an 
enormous benefit already to the people of the 20th 
Congressional District of New York, which I have the good 
fortune of representing.
    It never ceases to amaze me how hard my Republican 
colleagues work to avoid acknowledging the benefits of ACA. I 
have never heard them admit that this law helps the millions of 
Americans with preexisting conditions who can no longer be 
discriminated against.
    Mr. Cohen, can you summarize for us some of the important 
new protections that are now in place under the Affordable Care 
Act?
    Mr. Cohen. Well, certainly. Thank you, Congressman. 
Absolutely, the issue of preexisting is a huge one. Previously, 
people could be denied insurance altogether, not even because 
they are sick at the time they are applying but because they 
had some condition in the past that caused the medical 
underwriters to say that they weren't a good risk, and then if 
they were offered insurance, notwithstanding whatever that 
preexisting condition might be, they could be charged 
significantly more as a result of that, and one of the impacts 
of that, of course, was the fact that women were being charged, 
you know, substantially more than men--being a woman was deemed 
to be a preexisting condition. So all of that is gone.
    And then the last one I would mention, and I think it is 
very important, is that in the past, people could find that if 
they did become seriously ill, their insurance would run out 
because they had either an annual limit of how much it would 
pay or a lifetime limit of how much it would pay, and they 
might be in the middle of a course of treatment that was 
necessary to save their lives and find that all of a sudden the 
insurance companies stopped paying and that they were 
responsible for those costs on their own, and that can't happen 
anymore.
    Mr. Tonko. Thank you. The stories of people signing up for 
coverage would drive home how important these new provisions 
are, and I know some stories have recently been posted. I read 
a story about Nick from Miami. He is 29 and was denied coverage 
last year because of a preexisting condition. He was forced to 
enroll in a short-term catastrophic plan that cost him $280 a 
month and had a termination date. Because of the ACA, he now 
has better coverage with lower out-of-pocket costs and a 
guarantee that he won't be kicked off his coverage or denied 
because of a preexisting condition. Now he is covered and he 
does not have to worry. There are more of these stories each 
and every day.
    Albert from Texas got covered for the first time in his 
life because of the ACA. He got a plan for only $23 per month. 
He said it is the right thing to do. You never know what could 
happen to you.
    Mr. Cohen, have you heard other stories like these?
    Mr. Cohen. Yes, we are hearing stories like that all the 
time, and we are seeing them through social media. We are 
seeing people are sending us their stories. On Healthcare.gov 
there is a place where you can provide your story, and I must 
say they are extremely heartening.
    Mr. Tonko. And what do they say to you about the importance 
of the Affordable Care Act?
    Mr. Cohen. The Affordable Care Act is literally going to be 
lifesaving for many, many, many Americans who without it would 
not have had the ability to get the health care that they need 
and it is going to be a financial lifesaver for many Americans 
who otherwise would have faced bankruptcy as a result of 
medical costs, which was the leading cause of bankruptcy in the 
country prior to the ACA and I think we are going to see that 
change dramatically.
    Mr. Tonko. I just wish our colleagues would just admit for 
even the briefest moment that this law is helping millions of 
people. Maybe then we could move forward and have a national 
conversation about the Affordable Care Act and any additional 
improvements that might be required. So with that, I thank you, 
Director Cohen, and thank you for appearing before our 
committee.
    Mr. Murphy. The gentleman yields back. I now go to Mr. Long 
of Missouri for 5 minutes.
    Mr. Long. Thank you, Mr. Chairman.
    One person that does not think this is a lifesaving 
endeavor is Brenda from my district, and Brenda has been 
fighting a very rare form of cancer for the last 7 years, and 
she leaves Springfield, Missouri, to go down to Little Rock, 
Arkansas, to seek treatment. She is in a high-risk pool. She 
was in a high-risk pool. When she found insurance, she found 
out that she could no longer go to Little Rock, Arkansas, to 
seek treatment from this very specialized doctor that has 
literally kept her alive for the last 7 years. They gave her 3 
months to live when first diagnosed. She got active. She is 
mid-50s, late 50s, and back then she was early 50s, I guess, 50 
years old, and she decided it wasn't time to die so she wanted 
to fight and get active and find a treatment for this, so she 
did down in Little Rock, Arkansas, and she called me from her 
chemo chair or texted me, emailed me from her chemo chair 
telling me that she had lost her insurance, and when she found 
new insurance, because the high-risk pool is going away, when 
she found new insurance, she was told that she could no longer 
seek treatment down in Little Rock, Arkansas, from this doctor, 
who is one of the few in the country that does it. So I know 
you say it is lifesaving. I know that my friend from New York 
says that he wants people on this side of the aisle to admit 
there are good cases. Sure, there is people that are picking up 
insurance, there are good cases, but there is also people that 
this could very easily cost them their life. So I am concerned 
for people like Brenda.
    Mr. Cohen. Well, we certainly would like to hear from you 
about Brenda's situation, if there is anything we can do to 
work with the insurance companies.
    Mr. Long. And I appreciate that.
    Mr. Cohen. We would be very happy to do that.
    Mr. Long. I gave a floor speech on the subject a month or 
so ago, whenever she first emailed me, and she was literally in 
the chemo chair in Little Rock taking the treatment, and she 
said all the nurses stood up and cheered for my floor speech in 
the room, but there are serious concerns for people like 
Brenda.
    Sticking with the high-risk pools for just a minute, I know 
that this new national high-risk pool as opposed to the State-
run ones that ran out at the end of December or whatever have 
been extended to the end of what period?
    Mr. Cohen. End of March.
    Mr. Long. End of March. How are those being paid for? I 
mean, where are you getting the money to pay for those? Who is 
paying for that? We cannot get any answers, at least my staff 
has been able to, on how this is being funded.
    Mr. Cohen. Oh, that is very clear. I mean, there is a $5 
billion appropriation in the Affordable Care Act, and that is 
the entire amount of money, that $5 billion appropriation that 
was in the Affordable Care Act that has paid for the PCIP 
program, and we had----
    Mr. Long. I hate to interrupt you, that is not my style, 
but the $5 billion, wasn't that for a set amount of time? But 
we keep getting these extensions that don't seem to be paid 
for.
    Mr. Cohen. So the statute says that we can use that money 
to ease the transition of PCIP enrollees into the new market 
and so what we found was, we had enough funding based on the 
number of enrollees we had and the costs that we are incurring 
to allow those benefits to continue through March, and at the 
end of March--by the end of March, everyone who is in that 
program needs to get private coverage, and that program----
    Mr. Long. Or they won't be able to seek care in Little 
Rock. That is the rub there, I think.
    The ranking member said earlier, and my friend from Florida 
made reference to the fact that there is all these people that 
have enrolled in the Affordable Care Act that didn't have 
coverage before. How can we drill down and figure out what the 
number is? Just because 146,000 in Florida in Ms. Castor's 
district signed up in December, how do we know that those 
people did not have insurance before? How do we know they are 
not like Brenda that was forced off her plan and hopefully can 
find another plan? Is there a way to ascertain if these are 
true numbers, if these are really people that are covered for 
the first time ever, they now have health care insurance that 
never had it before?
    Mr. Cohen. So that is a really good question, and we are 
working on being able to provide data as to the number who were 
previously uninsured versus the number who may have been 
insured before and are switching to new coverage, and we 
understand that is an important issue. We don't have that data 
today.
    Mr. Long. If you can work on that, because one side tells 
one side of the story, one side tells the other, and usually, 
as you know, the truth lies in the middle. So when I hear how 
many people that never had cover before, I question if they 
didn't have it, lost it and bought new.
    So thank you for your time here today.
    Mr. Cohen. Thank you.
    Mr. Murphy. The gentleman yields back. Now Mr. Butterfield 
for 5 minutes.
    Mr. Butterfield. Thank you, Mr. Chairman, and thank you, 
Mr. Cohen, for your testimony today. I want to assure you, Mr. 
Cohen, that when the history of this debate is written many 
years from now, I promise that you will be regarded as one of 
many people in this Administration and across this country who 
were on the right side and helped millions of Americans get 
insurance. You are doing the right thing, and I want to thank 
you for what you do.
    Mr. Cohen. Thank you.
    Mr. Butterfield. But Mr. Chairman, this is getting 
ridiculous. My friends just won't let go. I think Mr. Tonko 
made reference to it a few minutes ago.
    Let me try to put this in somewhat of context. Yesterday's 
New York Times wrote that North Carolina Senator Kay Hagan has 
faced more than 3,500 negative ads about the Affordable Care 
Act since June 1st. That amount of negative ads is more than 
three times as much as any other Member of Congress. Five 
million dollars has already been spent on negative ads related 
to Obamacare in my State of North Carolina.
    The fact is, Mr. Chairman, the Affordable Care Act is the 
law of the land. It is working in my State. A vendor in my 
district is named Carlton Stevens, Jr. I drove up to an Exxon 
station a few days ago, and Little Carlton, we call him, jumped 
out his car and told me how excited he was that he had signed 
up with the Affordable Care Act, told me that he was paying 
$700 for he and his wife and two children, that the premium was 
going up to $800, that he enrolled in the Affordable Care Act 
and is now paying $240 per month.
    The fact is, and the reason Mr. Cohen had difficulty in 
trying to describe winners and losers is that each case is 
unique. You have to compare the coverage. You have to compare 
the cost. You have to compare the circumstances. And so the 
vendor in my district is Carlton Stevens and he is getting 
insurance now for $240 per month.
    Of all states participating in the federal exchange, my 
state, Ms. Ellmers' state as well, had more than 107,000 
enrollees from October to December, which constitutes the most 
enrollees in the federal marketplace per capita. Eighty-nine 
percent of those enrollees are low or middle income and qualify 
for a tax credit for their plans. North Carolinians are having 
tremendous success with the federal marketplace and 
Healthcare.gov. In fact, North Carolina leads all other States 
in Health and Human Services Region 4 with more than 61 percent 
of individuals who complete an application selecting a 
marketplace plan.
    Nationwide, the trend is very similar. By the end of 
December, nearly 2.2 million had enrolled and several hundred 
thousand more have enrolled since then. Tuesday's Washington 
Post cover story stated, ``The data show a sevenfold upswing in 
enrollment in the federal exchange from the first 2 months as 
the Web site's performance improved.''
    And so Mr. Cohen, I want to ask you, can you describe for 
me the trend in the number of adults 18-34 who have selected 
these marketplace plans?
    Mr. Cohen. I think we reported the 18-34 was about 24 
percent of the enrollments and that that was very close to the 
percentage of that age group in the general population, so we 
were quite pleased by that, and we expect to see that number 
increasing as we move through the rest of the open enrollment 
period.
    Mr. Butterfield. Well, talk to me about some of the 
national campaigns which will help to begin to get youth 
enrollment up higher than even 24 percent, perhaps to 40 
percent.
    Mr. Cohen. So I know that we are going to be doing a lot 
more paid media, specifically around the Olympics, which will 
be starting in a couple of weeks, and around other sporting 
events and other activities that we would expect young people 
to be particularly interested in. I know we have been doing and 
are doing an increased amount of outreach through the social 
media, Facebook, Twitter, all that sort of thing, and I know 
that all of our advertising is very targeted to try to reach 
the populations that we most want to get--obviously we want 
everyone to enroll but we want to particularly focus obviously 
on the young people, as we have talked about.
    Mr. Butterfield. Thank you. And lastly, I made reference to 
my home State of North Carolina in my introductory statement, 
and I am very proud of the enrollment rates there. I have 
700,000 people in my congressional district, and I tell you 
that 100,000 of those 700,000 are uninsured, and this is making 
a difference. What factors do you believe contribute to North 
Carolinians choosing marketplace plans at such a high rate as 
compared to the national norm?
    Mr. Cohen. Well, I mean, I have to believe that in places 
where the need is the most, is where we are seeing the biggest 
response. So in places where the rate of uninsured was high, I 
think that is where we are seeing the biggest response.
    Mr. Butterfield. Thank you.
    Mr. Murphy. In response to his question, do you know how 
you are spending on the Olympics advertising?
    Mr. Cohen. I actually don't but I am sure we can get that 
for you.
    Mr. Murphy. Please let us know. Thank you.
    I now recognize the gentlelady from North Carolina, Ms. 
Ellmers.
    Mrs. Ellmers. Thank you, Mr. Chairman, and to my colleague 
from North Carolina, Mr. Butterfield, I am going to extend some 
of the questions to you, Mr. Cohen, where Mr. Butterfield left 
off.
    Mr. Butterfield. And adjoining districts, we might add.
    Mrs. Ellmers. Yes.
    Mr. Butterfield. Adjoining districts.
    Mrs. Ellmers. My colleague pointed out that about 107,000 
have enrolled in North Carolina. Those are the figures that we 
are seeing. However, 437,000 received cancellation notices for 
health care policies they already had. So even though 107,000 
may sound impressive, we are way behind on those who have had 
their policies cancelled. So there is a lot of making up to do.
    I do want to get back to some of those numbers. Now, 
correct me if I am wrong, but how many people in America do you 
believe have signed up for coverage now?
    Mr. Cohen. Well, the most recent figures that we put out 
were 2.2 million, and that is just in the marketplace. 
Obviously there are people who are buying coverage----
    Mrs. Ellmers. So the six million figure that I keep hearing 
about today, where is the six million figure coming from?
    Mr. Cohen. That is taking the 2.2 and adding 3.9 million 
who enrolled in Medicaid.
    Mrs. Ellmers. OK. So basically what we are doing is, we are 
culminating. Are you aware that the Washington Post gave three 
Pinocchios to this number? Are you going to keep this figure?
    Mr. Cohen. I didn't see the Pinocchios. I would have to 
take a look at what they called into question.
    Mrs. Ellmers. So you agree with the six million figure? You 
believe that there have been six million?
    Mr. Cohen. I believe that as we reported, 2.2 million have 
enrolled in marketplace plans and about 3.9 million had 
enrolled in Medicaid, and I think the Medicaid number was 
actually only through November.
    Mrs. Ellmers. OK. Now, of those who signed up for Medicaid, 
how many of them could have previously signed up for Medicaid 
but did not before Obamacare was instituted?
    Mr. Cohen. I don't have that number for you.
    Mrs. Ellmers. You don't have the number? Can you get the 
number?
    Mr. Cohen. I can certainly ask my colleagues in Medicaid if 
they have that number.
    Mrs. Ellmers. OK. Because that----
    Mr. Cohen. I don't run Medicaid so----
    Mrs. Ellmers. That doesn't fall under you?
    Mr. Cohen. No.
    Mrs. Ellmers. OK. So now we have a situation where we have 
a number of Medicaid that are signed up. Wonderful. We want to 
make sure that people have coverage that is applicable to them, 
but isn't this going to play into the cost factor, especially 
for those States, we don't really know where the numbers fall 
as far as those who could have signed up before, but did not 
for whatever reason and now have?
    Mr. Cohen. Well, the States that expand, the newly eligible 
will be paid 100 percent by----
    Mrs. Ellmers. Right, the newly eligible, but those who 
could have received coverage before, the States are going to be 
responsible for a percentage of that, correct?
    Mr. Cohen. That is right, under the usual match, yes.
    Mrs. Ellmers. Now, you said you don't have the number, you 
don't have the figure, when we had Secretary Kathleen Sebelius, 
she said that she did not have that number, and I believe she 
actually said that they could not get that number, so I would 
appreciate if you could get that to us in the committee, 
because I think the thing of it is--and I will just quote the 
Washington post fact checker. Basically what he said is this 
number tells you almost nothing about how the health care law 
is affecting Medicaid enrollment. Reporters need to stop using 
it because basically--and that is a quote--it is very 
misleading. It is very misleading.
    Now, I have got a little bit more time here. We are all 
sharing stories about our constituents, and some of the stories 
that we have heard have been positive. I want to hit on the 
issue of the change for women because I keep hearing about 
bringing down costs for women. However, I have a woman who was 
formerly in my district, is not in my district now, from Rocky 
Mountain, North Carolina, who basically reached out to my 
office and through a personal situation, lost her health care 
coverage and now the plan--she was paying $254 a month. Now she 
is going to have pay $610 a month. She simply cannot afford it. 
She is probably going to have to choose to not take coverage. 
How can we continue to claim that health care has improved for 
women (with mammograms) when we call these things free, how did 
we go from $254 a month to $610 a month and we can still claim 
that she is getting free services?
    Mr. Cohen. So again, I really can't address an individual's 
situations without more of the specifics. We would be happy to, 
you know, have folks talk to her if she is interested.
    Mrs. Ellmers. Well, I would appreciate that. I will have my 
staff get that information to you and your office so that we 
can work, because if we are really going to take care of women 
in this country, health care issues for women, let us be 
straight on it. Let us make sure that we are getting the points 
across because women's health is very, very important, and this 
is very misleading.
    So with that, I yield the remainder of my time.
    Mr. Murphy. The gentlelady yields back. I now recognize Ms. 
Schakowsky for 5 minutes.
    Ms. Schakowsky. Thank you, Mr. Chairman.
    I want to talk a little bit about constituent services when 
it comes to health care because long before the Affordable Care 
Act, my office spent a lot of time dealing with insurance 
problems, people who suddenly weren't able to get the 
medication that they had been getting before, I mean, really 
tricky issues that sometimes we could solve and sometimes we 
couldn't solve. So the private insurance market as it was 
before was very difficult to navigate. I think that is really 
important to remember.
    But I have to tell you, Mr. Cohen, we have done constituent 
service with your office on many occasions now since the 
Affordable Care Act is in place, and I am happy that you were 
able to tell my friend, Congressman Long, that you would look 
at the Brenda situation and work to get her the health care 
that she needs, and I would suggest that my experience has been 
that we have been able to resolve through your office many of 
the problems. Yes, this is a confusing time, but I guarantee 
you that before Obamacare, it was very confusing every year, 
and by the way, still is with Medicare Part D, and we really 
encourage all of our constituents on that program to look every 
single year to make sure that their medications are still on 
the formulary.
    Mr. Cohen. And if I can just say, Congresswoman, we have 
gotten tremendous response from the insurance industry, from 
the pharmaceutical industry as we have tried to resolve these 
problems this January, and I have talked with the issuers, I 
have talked with the pharmacies, I have talked with the 
hospital association, and what I am hearing from them is that 
the nature of the problems that we are seeing as we moved into 
January and people using their coverage are no different from 
what has happened every year as people get new coverage, change 
coverage. There are always issues in terms of people being able 
to verify their enrollment, being able to see their doctor, all 
those kinds of issues, and we stand ready to help. We have 
caseworkers in every single region of the country, and we stand 
ready to help anybody if we possibly can.
    Ms. Schakowsky. And I know that in my state, Democrats and 
Republicans are working very hard to help their constituents 
and so I am hoping that everyone on the other side of the aisle 
on this committee is taking advantage of the constituent 
service that is available from you and then also through the 
insurance companies and the pharmaceutical companies.
    I wanted to again go over a little bit on the issue of 
these letters of termination. Insurance companies that we have 
talked to said they expected almost all of their current 
customers to stay covered. Have you seen evidence of that?
    Mr. Cohen. Oh, absolutely. So it really is not accurate to 
think that because a plan is no longer being offered that that 
means the person is not getting coverage. Again----
    Ms. Schakowsky. And let us be clear. It is not offered 
because it doesn't meet the criteria of the----
    Mr. Cohen. That is right. So in every instance that I am 
aware of, the carrier offered the person a new plan that in 
some cases automatically enrolled them in a new plan so that 
there would be no gap in coverage. So and then in addition to 
that, of course, through our transitional policy, we have made 
it possible for people to keep their existing plan if that is 
what the insurance company wants to offer to them.
    Ms. Schakowsky. My understanding of this issue of the 
grandfather option enables about half of those who receive 
cancellation notices to renew their plan. Has this been 
happening?
    Mr. Cohen. That is right.
    Ms. Schakowsky. And roughly half the remaining group that 
got cancellation letters, my understanding is, are able to get 
actually a better deal through the federal and state 
marketplaces because they are eligible for tax credits or 
Medicaid, so they get better coverage for a lower and often 
much lower cost.
    Mr. Cohen. So for people who are eligible for the subsidy, 
absolutely, we would expect that they would pay less and they 
would in many cases get better benefits than what they had had.
    Ms. Schakowsky. And finally, in December, the President 
announced that individuals who had canceled policies would be 
eligible for a hardship exemption so they could purchase low-
cost catastrophic plans. How will this change the options 
available to those that got cancellation notices?
    Mr. Cohen. So what that basically means is, anyone who got 
a cancellation and feels that the plans that are available to 
them are not affordable can claim the hardship exemption and 
can enroll in a catastrophic plan, which is a high-deductible 
plan but will cover them in the case of any serious illness, 
and those plans are generally very affordable.
    Ms. Schakowsky. Thank you. I yield back.
    Mr. Murphy. The Chair recognizes Mr. Johnson for 5 minutes.
    Mr. Johnson. Thank you, Mr. Chairman.
    Mr. Cohen, I too would like to thank you for being here 
today. You know, we have had a long and arduous journey since 
this all started and the American people came under the 
Affordable Care Act back last October, the Web site going up, 
and you mentioned in your testimony that the problems that we 
had, that it wasn't time to give up, it was time to roll up our 
sleeves and get to work. Well, I respect that, but I will 
submit to you that we have got a little bit of a different idea 
about what roll up your sleeves means. You see, the American 
people, businesses, individuals, hardworking taxpayers across 
this country who are increasingly burdened by the big-spending 
over-regulating policies of this Administration, not very many 
of those folks get a second chance. Only in Washington, D.C., 
and with this Administration do we see a constant pattern of 
redo at somebody else's expense. In this case, it is the 
American people's expense.
    So I submit to you that what we should have done, what the 
Administration should have done is roll up its sleeves and do 
this the right way in the first place. Let doctors and patients 
manage their health care. We have got a private sector health 
care system that has provided the best health care in the 
world. It did not have to be done this way.
    Let me get to a few specific questions. Since the launch of 
Healthcare.gov, Mr. Cohen, has the site been subject to any 
security breaches?
    Mr. Cohen. No.
    Mr. Johnson. No security breaches?
    Mr. Cohen. There have been no breaches in the sense of 
anybody attacking the site and being able to----
    Mr. Johnson. There have been no incidences of people 
attacking----
    Mr. Cohen. No, where they were successful.
    Mr. Johnson. That is what you just said.
    Mr. Cohen. Well, because you interrupted me, Congressman. I 
didn't get a chance to finish what I am trying to say. No, 
there have been no successful attempts where anyone has been 
able to attack the system and penetrate it.
    Mr. Johnson. Wow, that is contrary to what we have heard in 
other testimony and what is widely known in the media.
    Ms. DeGette. Mr. Chairman, I respectfully disagree with 
that.
    Mr. Johnson. Claiming my time. Claiming my time. What is 
the difference, in your opinion, between a security incident 
and a security breach?
    Mr. Cohen. You could have a security incident where because 
of an error or a mistake or somebody sent something to the 
wrong place, you know, that was an isolated, specific incident 
where information was transmitted in a way that was incorrect. 
When I hear breach----
    Mr. Johnson. How do you relate that back to the testimony 
that we have heard before the Energy and Commerce Committee 
that security was never even factored in and tested prior to 
standing up the Web site? So can you promise the American 
people today right now that their personal information is 
secure on Healthcare.gov?
    Mr. Cohen. Yes. I can't promise that there won't ever be an 
incident but I can promise that their information is secure, 
and I can promise that----
    Mr. Johnson. That sounds like an oxymoron to me. You can't 
assure that there is not going to be a breach but their 
information is secure?
    Mr. Cohen. That is not what I said.
    Mr. Johnson. Let me ask you a follow-on question. Can you 
promise to this Congress that if Healthcare.gov is subject to a 
breach or a hack or any security failure that you will alert 
the Congress as soon as you find out about it?
    Mr. Cohen. We follow normal procedures and protocols for 
when those incidents happen.
    Mr. Johnson. But the American people need to know and this 
Congress needs to know, so can we get your agreement that you 
will notify Congress if that occurs?
    Mr. Cohen. We will certainly work with you to make sure you 
get that information.
    Mr. Johnson. Whose job is it to inform Congress and the 
American people when a security breach occurs? Whose job is 
that?
    Mr. Cohen. CMS has an Office of Security, information 
security, that is responsible for that, and is today in the 
case of the Medicare system where we have 50 million enrollees 
whose data----
    Mr. Johnson. I got it. CMS is responsible. Who is 
responsible for the overall cyber security of the 
Healthcare.gov site?
    Mr. Cohen. I think that is the same.
    Mr. Johnson. Do you know how many people in CMS are 
dedicated to protecting the security of Healthcare.gov?
    Mr. Cohen. I couldn't tell you a number of people. I know 
we have a dedicated security team. I know we do continuous 
monitoring. We actually have people watching the site 24 hours 
a day.
    Mr. Johnson. Do you know how many contractors are involved?
    Mr. Cohen. I don't.
    Mr. Johnson. Do you know how much money is being spent to 
provide security?
    Mr. Cohen. On security? I would have to get that number for 
you.
    Mr. Johnson. Does anyone report to you regarding the 
security of the site?
    Mr. Cohen. My office is not responsible for the security of 
the site but I am given reports----
    Mr. Johnson. Can you give us examples of those reports so 
we can see what those reports include?
    Mr. Cohen. I can certainly take that request back and see 
what we have.
    Mr. Johnson. OK. Well, I mean, they come to you so you 
ought to be able to release them, right?
    Mr. Cohen. I can certainly take your request back and see 
what we have.
    Mr. Johnson. Mr. Chairman, I yield back.
    Ms. DeGette. Mr. Chairman, I ask--oh, go ahead.
    Mr. Murphy. I was just going to say that a number of the 
reports on attempts to hack into the system are classified, and 
we can make that available to all members to know that there 
have been multiple attempts. There has not been a breach yet 
but I am sure the attempts will continue on, but much of that 
is classified.
    Ms. DeGette. Mr. Chairman, in that vein, last week 
Democratic staff of the subcommittee and full committee 
prepared a memo of information that was provided in the 
classified briefings, which is not classified. A lot of the--I 
was at the classified briefings. A lot of that information was 
not of a classified nature, and what that information said is, 
there are no successful hacks of Healthcare.gov, and it further 
said that surprisingly there have been no additional attempts 
than other government Web sites. And so I would ask unanimous 
consent to put that memorandum, which is dated January 9, 2014, 
into the record.
    Mr. Murphy. And we will take that into the record.
    [The information appears at the conclusion of the hearing.]
    Mr. Murphy. We will also remain vigilant, because we 
suspect there will continue to be attempts.
    Now, there is some time left on the floor for votes. We can 
adjourn to go vote and come back and complete this----
    Ms. DeGette. I think we have time.
    Mr. Murphy. Would you like to continue? Who is next?
    Mr. Harper, you are recognized for 5 minutes.
    Mr. Harper. Thank you, Mr. Cohen. Good to see you again. We 
are almost done. I would like to ask a few questions if I 
could.
    You touched on earlier in response to some questions about 
risk corridors.
    Mr. Cohen. OK.
    Mr. Harper. And it is a program to offset huge cost 
increases being the temporary risk corridor program. Where 
within the Administration is this program housed? Is it HHS, 
CMS or where?
    Mr. Cohen. Risk corridors is under my program.
    Mr. Harper. And the individual in charge of that program 
would be who?
    Mr. Cohen. The person who works for me who is responsible 
for that program's name is Sharon Arnold.
    Mr. Harper. So it is just that one person then that would 
be the one in charge?
    Mr. Cohen. Well, she runs the program. She reports to me, 
so I am responsible but she works for me, and that is her 
program that she is managing with other people, with her staff.
    Mr. Harper. And there are other staff then, multiple people 
would help her to run that program?
    Mr. Cohen. That is true.
    Mr. Harper. And would you be able to provide us a complete 
list of the staffers who do perform any service connected to 
the risk corridor program?
    Mr. Cohen. Yes.
    Mr. Harper. Thank you. Under this program, if insurers are 
hit with costs greater than 103 percent of their premiums, the 
government will give them money. Am I correct?
    Mr. Cohen. That is right.
    Mr. Harper. How will----
    Mr. Cohen. And there are certain--it is a little more 
complicated than that but yes.
    Mr. Harper. And I have got a couple of follow-up questions 
that may allow you to answer that. How will the determination 
be made of what these costs are? I mean, is there a form or----
    Mr. Cohen. The insurance companies will have to present 
data to us on their health care expenditures, and then it won't 
be until 2015 that we actually make any payments under the 
program.
    Mr. Harper. So can you tell us exactly how the insurers 
will report this? I know it has to be--they are going to report 
it, but how are they going to report it?
    Mr. Cohen. There will be forms or templates or whatever 
that they will have to provide to us, the accounting 
information that will tell us what their health care spending 
has been.
    Mr. Harper. And I have got follow-up too on some enrollment 
questions if I can shift over to that.
    Mr. Cohen. Sure.
    Mr. Harper. The most important number, as has been reported 
by many news outlets, is whether individuals have paid. Does 
the Administration collect this information? I am just asking, 
do you collect this information?
    Mr. Cohen. Right now we are not but we will be.
    Mr. Harper. When?
    Mr. Cohen. As soon as that functionality is built. I think 
I answered some questions about that earlier, that not all of 
that functionality is built yet.
    Mr. Harper. Will that mean then that we have to go back all 
those that are enrolled, find out whether or not they paid so 
they will have to go back to those that are already in? We are 
not collecting it as it occurs?
    Mr. Cohen. We ultimately will reconcile to make sure that 
advanced premium tax credits, for example, are not paid with 
respect to anyone who didn't pay their premium because that is 
a requirement, that you pay your premium in order to get the 
tax credit.
    Mr. Harper. What department would have this data?
    Mr. Cohen. It is going to come to my office.
    Mr. Harper. Who would be the individual that would be in 
charge of that operation?
    Mr. Cohen. That is also Sharon Arnold.
    Mr. Harper. So we don't know at this point how many people 
have actually paid for coverage?
    Mr. Cohen. That is right.
    Mr. Harper. So are you telling me that you don't have any 
data, you haven't received any information as to who has paid 
or you just haven't compiled it yet?
    Mr. Cohen. We have gotten enrollment data from the issuers 
with respect to the APTC payments that we are going to be 
making next week but it is not on an individual basis. So they 
have told us who--the number of people who are enrolled and who 
have paid but we don't have it on an individual basis.
    Mr. Harper. Am I----
    Mr. Cohen. Ultimately we will.
    Mr. Harper. And I didn't mean to cut you off, Mr. Cohen. 
Are you telling me you are going to be paying insurers without 
knowing whether or not the insureds have been paid?
    Mr. Cohen. No, we are going to be relying on data from them 
as to who has paid but we don't yet have an automated system--
--
    Mr. Harper. So if you are relying on that----
    Mr. Cohen. And we will reconcile that as soon as--make sure 
that those numbers are reconciled and are correct once we do 
have the capability of receiving the additional data.
    Mr. Harper. All right. Well, do you know the total amount 
of paid from each insurer at this point since you are relying 
on that data?
    Mr. Cohen. Yes, we have information on what we are going to 
be paying to each insurer in this first group of payments that 
is going out next week. We do have that.
    Mr. Harper. Can we go ahead and get the data that you do 
have, whether it is compiled or not?
    Mr. Cohen. I am sure you can.
    Mr. Harper. All right. I believe my time is almost expired. 
I will yield back.
    Mr. Murphy. The gentleman yields back. I now recognize the 
gentleman from Colorado, Mr. Gardner, for 5 minutes.
    Mr. Gardner. Thank you, Mr. Chairman, and thank you, Mr. 
Cohen, for your time today.
    I too received my insurance cancellation. Have you ever met 
anybody who had their insurance canceled?
    Mr. Cohen. You may be the first.
    Mr. Gardner. That is pretty shocking, because 335,000 
people in Colorado alone had their insurance canceled. The 
letter that I got that told me that it would be cancelled 
included this option: your option includes purchasing another 
individual health plan from us, purchasing a health plan from 
another carrier or purchasing a new plan through Connect for 
Health Colorado. Was the President's promise that I could keep 
my health care plan upheld? The President's promise to me, was 
that upheld?
    Mr. Cohen. Well, we have talked about this a lot. The law 
provided that insurance companies could keep the existing plans 
as long as they didn't make significant changes to benefits and 
cost sharing. Insurance companies made different choices. There 
are still a lot of grandfathered plans out there, and those 
maintain, but then there were other plans that did not continue 
into 2014. In some cases, those plans were canceled.
    Mr. Gardner. So was the President's promise upheld to me? I 
mean, I don't remember the President saying there are 
qualifications if you like your health care plan. There is no 
asterisk.
    Mr. Cohen. The law made it possible for everyone who is in 
an existing plan as of the time it was passed for that plan to 
be maintained but it didn't require insurance companies to 
continue offering them.
    Mr. Gardner. So the President----
    Mr. Cohen. What we did--so what we did in November was, we 
offered another opportunity to say to insurance companies, you 
can keep those plans in place even if they didn't meet the 
requirements of the grandfathering provisions.
    Mr. Gardner. So these changes to allow that, these are big 
changes that you have to--or would a $5 change require them to 
discontinue the plan?
    Mr. Cohen. It was a percentage change that was in the 
regulation as to how much--and it wasn't a change in premium, 
it was a change in benefits or cost sharing.
    Mr. Gardner. So a copay of $5, that would require you to 
lose your insurance then?
    Mr. Cohen. I think that was one of the requirements.
    Mr. Gardner. And so is that a significant change to an 
insurance policy, in your opinion?
    Mr. Cohen. Well, if a copay was $20 and it goes up $5, that 
is pretty significant, yes.
    Mr. Gardner. So the President's promise, he said--so 
really, in your mind, he shouldn't have even had to apologize 
because he didn't do anything wrong.
    Mr. Cohen. I think the President said that he recognized 
that what he had said did not prove to be true for many 
Americans, and as a result of that, we offered another 
transitional policy to make it be more possible for more 
Americans to get plans.
    Mr. Gardner. And do you have legal opinions that give the 
President the authority to make these extensions and changes? 
Could you provide me with a legal memorandum that----
    Mr. Cohen. I would have to--I honestly don't recall whether 
we had a legal opinion on that issue.
    Mr. Gardner. You testified in September, as we talked 
about, before the committee talking about everything going 
fine, and it would be fine. When did you first know that it 
wasn't going fine? Was it September 27th, 28th, October 1st?
    Mr. Cohen. October 1st.
    Mr. Gardner. So you had no indication prior to October 1st 
that things weren't going well?
    Mr. Cohen. I had no indication prior to October 1st that we 
are going to have the major, major problems with the Web site 
that we ended up having.
    Mr. Gardner. When did you first know that people would have 
their insurance canceled?
    Mr. Cohen. I think we have always known that not all of the 
grandfathered plans were going to continue. I don't think we 
had necessarily a sense of how many would and how many 
wouldn't.
    Mr. Gardner. When do you expect small business plans to 
start canceling insurance?
    Mr. Cohen. That will likely happen throughout the course of 
the year. Small business plans don't tend to all come up for 
renewal in January. Many of them were renewed early in 2013 so 
that they will continue----
    Mr. Gardner. And how many do you anticipate being canceled?
    Mr. Cohen. I don't have a number on that. We can look to 
see if we can come up with a number.
    Mr. Gardner. If you could provide an estimation of how many 
additional insured you think will be canceled, that will be 
great.
    And so do we have an idea of how many signed up through the 
federal exchange so far? I know some of this we have talked 
about before but how many people have signed up through the 
federal exchange?
    Mr. Cohen. Well, we reported that through December 28th, it 
was 2.2 million in the federal and the state, and of those, it 
was something over 1.1 million that were in the federal.
    Mr. Gardner. OK. So about 1.1 million in federal, 1.1 
million in States?
    Mr. Cohen. Roughly, yes.
    Mr. Gardner. OK. How many of those who signed up in 
exchanges were not previously insured?
    Mr. Cohen. I don't have that number.
    Mr. Gardner. How many were previously insured but had their 
insurance canceled and now signed up in the federal exchange?
    Mr. Cohen. I don't have that number either.
    Mr. Gardner. How many saw their insurance rates go up?
    Mr. Cohen. I don't have that number.
    Mr. Gardner. But you said that you know of a significant 
number of people who saw their rates go down?
    Mr. Cohen. As we have been hearing----
    Mr. Gardner. So you don't know for sure if their rates went 
down. You are hearing anecdotal evidence.
    Mr. Cohen. We are hearing anecdotally, and I think----
    Mr. Gardner. So you don't have any concrete numbers on 
whether rates went up or down?
    Mr. Cohen. I think that we know that for people who are 
eligible for a subsidy that, for those people, it is almost 
certain that their costs would have gone down.
    Mr. Gardner. So you have some numbers but you don't know 
how many went up. OK.
    So of the supposed 45 million without insurance, how many 
people now have insurance?
    Mr. Cohen. I don't think we have that number yet but 
certainly we are going to try to come up with as good data as 
we can as we go forward, you know, to the end of open 
enrollment.
    Mr. Gardner. How do we know the law is working?
    Mr. Cohen. Well, we know the law is working for many people 
and we know that----
    Mr. Gardner. But you don't know how many of the uninsured 
are now insured. You don't know how many people saw their rates 
go up versus rates go down. Insurance companies aren't being 
paid yet.
    Let us talk about the risk corridor provisions. What is the 
probability of the risk corridor provision being utilized or 
activated?
    Mr. Cohen. Utilized?
    Mr. Cohen. What is the probability of the risk corridor 
language being utilized?
    Mr. Cohen. Oh, I mean, I think there will be a risk 
corridor program.
    Mr. Gardner. No, but I mean, when is the provision of that 
language being activated and payments being made from the 
government to insurance companies? What is the probability of 
that?
    Mr. Cohen. Oh, that will happen.
    Mr. Gardner. So you are saying that the government will be 
paying private insurance companies----
    Mr. Cohen. Oh, how likely is it that there will be claims 
on the program?
    Mr. Gardner. Yes.
    Mr. Cohen. I think we anticipate that there will be claims 
on the program but there also may be some whose costs are lower 
than what they anticipated and there will be payments into the 
program, and I think the estimate was that it was budget 
neutral.
    Mr. Murphy. The gentleman's time is expired. Dr. Burgess, 
do you have a follow-up question on something? I am just going 
to give you 30 seconds.
    Mr. Burgess. I know we will have to do this for the record, 
Mr. Cohen. We are interested in any legal memoranda that you 
have been advised of or briefed on that define the authority 
under the Affordable Care Act to delay implementation or the 
authority to exercise enforcement discretion over enforcement 
provisions. We all know this law that was signed in March of 
2010 bears no resemblance to what is actually going on today 
because of the variety of enforcement discretions and delays 
that have been implemented by the Administration. We would like 
to know under what legal authority you are operating or what 
you have seen that gives you the legal authority to do so. 
Thank you, Mr. Chairman.
    Mr. Murphy. And you will provide that for the record, Mr. 
Cohen?
    Mr. Cohen. We will certainly take that request back and 
work with you.
    Mr. Murphy. I would also like you to follow up with the 
other questions that members on both sides of the aisle asked 
as follow-up questions. I would really like to know Mr. 
Gardner's answers to his questions he asked about, just how 
many people of the 45 million that were originally supposed to 
be helped are signed up and if it is more or less expensive for 
them.
    And I ask unanimous consent that the written opening 
statements of other members who wish will be introduced into 
the record.
    And in conclusion, I would like to thank the witness and 
the members that participated in today's hearing and remind 
members they have 10 business days to submit questions for the 
record, and I ask, Mr. Cohen, if you would please agree to 
respond promptly to the questions, and with that, this 
committee hearing is adjourned.
    [Whereupon, at 11:42 a.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
   
   
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
